No. _____

IN THE

Supreme Court of the United States
_________
RAMON HUESO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
SARAH M. KONSKY
Counsel of Record
DAVID A. STRAUSS
JENNER & BLOCK
SUPREME COURT
AND APPELLATE CLINIC
AT THE UNIVERSITY OF
CHICAGO LAW SCHOOL
1111 E. 60th St.
Chicago, IL 60637
773-702-9611
konsky@uchicago.edu

CATHRYN ARMISTEAD
ARMISTEAD LAW GROUP
222 Second Ave. South
Suite 1700
Nashville, TN 37201

MATTHEW S. HELLMAN
SARAH J. CLARK
JENNER & BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001

i
QUESTION PRESENTED
Section 2255 of 28 U.S.C., which authorizes postconviction relief for federal prisoners, generally requires
post-conviction motions be brought within a year of the
judgment and prohibits second or successive claims for
relief in most circumstances. But § 2255(e) includes a
savings clause that allows a prisoner whose claim is
otherwise barred to petition for a writ of habeas corpus
if the § 2255 remedy is “inadequate or ineffective” to test
the legality of his detention.
In this case, after petitioner Ramon Hueso’s first
§ 2255 motion, a change in circuit law made it clear that
Mr. Hueso had been wrongly subjected to an enhanced
mandatory minimum sentence. The Sixth Circuit—
explicitly disagreeing with the Fourth Circuit—
nonetheless denied Mr. Hueso’s petition for a writ of
habeas corpus, holding that a change in circuit law
cannot support relief under the savings clause.
The question presented is whether, notwithstanding
the savings clause of § 2255(e), an individual serving a
wrongfully enhanced sentence is barred from obtaining
relief, solely because the wrongfulness of the sentence
was established retroactively by a court of appeals
decision.

ii
LIST OF PROCEEDINGS
Hueso v. Barnhart, No. 18-6299, U.S. Court of Appeals
for the Sixth Circuit. Judgment entered January 9, 2020.
Hueso v. Barnhart, C/A No. 6:18-176-DCR, U.S. District
Court for the Eastern District of Kentucky. Judgment
entered November 26, 2018.
Hueso v. Sepanek, C/A No. 13-19-HRW, U.S. District
Court for the Eastern District of Kentucky. Judgment
entered August 6, 2013.
United States v. Hueso, No. 10-30017, U.S. Court of
Appeals for the Ninth Circuit. Judgment entered March
14, 2011.
United States v. Hueso, C/A No. 3:09-CR-00048-01RRB, U.S. District Court for the District of Alaska.
Judgment entered February 17, 2010.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ............................................... i
LIST OF PROCEEDINGS ...............................................ii
TABLE OF AUTHORITIES ...........................................v
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW .......................................................... 1
JURISDICTION ................................................................. 1
STATUTORY PROVISIONS INVOLVED .................. 1
INTRODUCTION .............................................................. 3
STATEMENT OF THE CASE ........................................ 5
A. Mr. Hueso Was Subject to a Twenty-Year
Mandatory Minimum Sentence Even
Though He Had Faced a Maximum
Sentence of Only Six Months for the
Underlying “Felony” Drug Offenses. ................... 5
B. The Governing Law Changed to Sharply
Reduce the Mandatory Minimum. ........................ 7
C. Post-Conviction Proceedings ................................. 7
REASONS FOR GRANTING THE PETITION........ 11
I. The Circuits Are Openly Split on the Question
Presented. ..................................................................... 11
A. The Fourth, Seventh, and Ninth Circuits
Would Entertain Mr. Hueso’s Petition. ............. 12
B. The Circuits That Would Deny Relief
Disagree Among Themselves. ............................. 14

iv
II. Federal Judges, and the Government Itself,
Have Recognized the Need for This Court’s
Intervention. ................................................................ 16
A. Court of Appeals Judges Have Called for
This Court’s Review. ............................................ 17
B. The
Government
Has
Repeatedly
Recognized the Appropriateness of This
Court’s Review. ..................................................... 19
III. This Case Provides an Excellent Vehicle for
Resolving This Recurring Question. ........................ 20
IV. The Sixth Circuit’s Decision Is Erroneous. ............. 21
CONCLUSION ................................................................. 25
Appendix A
Hueso v. Barnhart, 948 F.3d 324 (6th Cir.
2020).............................................................................. 1a
Appendix B
Hueso v. Barnhart, Civ. A. No. 6: 18-176DCR, 2018 WL 6172513 (E.D. Ky. Nov. 26,
2018)............................................................................ 66a
Appendix C
Amended Judgment, United States v. Hueso,
Case No. 3:09-CR-00048-01-RRB (D. Alaska
Feb. 17, 2010)............................................................. 79a

v
TABLE OF AUTHORITIES
CASES
Alaimalo v. United States, 645 F.3d 1042 (9th Cir.
2011) ................................................................................. 13
Allen v. Ives, 950 F.3d 1184 (9th Cir. 2020) ....................... 13
Beason v. Marske, 926 F.3d 932 (7th Cir. 2019) ............... 13
Bradford v. Tamez (In re Bradford), 660 F.3d 226
(5th Cir. 2011).................................................................. 14
Carachuri-Rosendo v. Holder, 560 U.S. 563 (2010) ........... 8
Chazen v. Marske, 938 F.3d 851 (7th Cir.
2019) ................................................................................. 13
Davis v. United States, 417 U.S. 333 (1974) ................ 21, 22
Hill v. Masters, 836 F.3d 591 (6th Cir. 2016) ...................... 9
McCarthan v. Directory of Goodwill IndustriesSuncoast, Inc., 851 F.3d 1076 (11th Cir.
2017) ..................................................................... 15, 16, 20
Montgomery v. Louisiana, 136 S. Ct. 718 (2016).............. 22
Prost v. Anderson, 636 F.3d 578 (10th Cir. 2011) ............. 15
United States v. Rosales, 516 F.3d 749 (9th Cir.
2008) ................................................................................... 6
United States v. Simmons, 649 F.3d 237 (4th Cir.
2011) (en banc) .................................................................. 8
United States v. Sineneng-Smith, 140 S. Ct. 1575
(2020) ................................................................................ 16
United States v. Valencia-Mendoza, 912 F.3d 1215
(9th Cir. 2019).......................................................... 4, 7, 23
United States v. Wheeler, 886 F.3d 415 (4th Cir.
2018), cert. denied, 139 S. Ct. 1318 (2019)........ 12, 20, 23

vi
United States v. Wheeler, 734 F. App’x 892 (4th Cir.
2018) ........................................................................... 18, 19
Whalen v. United States, 445 U.S. 684 (1980) ................... 23
Wright v. Spaulding, 939 F.3d 695 (6th Cir. 2019) ........... 18
S TATUTES
28 U.S.C. § 2241....................................................................... 4
28 U.S.C. § 2241(a) .................................................................. 2
28 U.S.C. § 2255(a) .................................................................. 4
28 U.S.C. § 2255(e) .................................................... 1, 3, 4, 22
28 U.S.C. § 2255(f)................................................................... 4
28 U.S.C. § 2255(h) .............................................................. 2, 4
Wash. Rev. Code § 9.94A.505(2)(a)(i) (2002) ....................... 6
Wash. Rev. Code § 69.50.4013 (2004) ................................... 6
OTHER AUTHORITIES
Brief for Respondent in Opposition, McCarthan v.
Collins, 138 S. Ct. 502 (2017) (No. 17-85), 2017
WL 4947338 ..................................................................... 19
Brief for the United States in Opposition, Higgs v.
Wilson, 140 S. Ct. 934 (2020) (No. 19-401), 2019
WL 6910416 ..................................................................... 19
Brief for the United States in Opposition, Jones v.
Underwood, 140 S. Ct. 859 (2020) (No. 18-9495) .. 19, 20
Brief for the United States in Opposition, Walker
v. English, 140 S. Ct. 910 (2020) (No. 19-52),
2019 WL 4750035 ...................................................... 19, 20

vii
Jennifer
L.
Case,
Kaleidoscopic
Chaos:
Understanding the Circuit Courts’ Various
Interpretations of § 2255’s Savings Clause, 45
U. Mem. L. Rev. 1 (2014) ......................................... 17, 20
Brandon Hasbrouck, Saving Justice: Why
Sentencing Errors Fall Within the Savings
Clause, 28 U.S.C. § 2255(E), 108 Geo. L.J. 287
(2019) .......................................................................... 17, 20
Petition for a Writ of Certiorari, United States v.
Wheeler, 139 S. Ct. 1318 (2019) (No. 18-420),
2018 WL 4846931 ............................................ 3, 19, 20, 21

PETITION FOR A WRIT OF CERTIORARI
Ramon Hueso petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Sixth Circuit.
OPINIONS BELOW
The opinion of the Sixth Circuit (Pet. App. 1a) is
reported at 948 F.3d 324. The order of the district court
(Pet. App. 66a) denying petitioner’s § 2241 petition for
habeas corpus is not reported in the Federal Supplement
but is available at 2018 WL 6172513. Petitioner’s
judgment of conviction is included in the Appendix (Pet.
App. 79a).
JURISDICTION
The judgment of the court of appeals was entered on
January 9, 2020. On March 19, 2020 the Court extended
the time within which to file a petition for a writ of
certiorari to and including June 8, 2020. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
28 U.S.C. § 2255(e) provides:
An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not
be entertained if it appears that the applicant has
failed to apply for relief, by motion, to the court
which sentenced him, or that such court has
denied him relief, unless it also appears that the
remedy by motion is inadequate or ineffective to
test the legality of his detention.

2
28 U.S.C. § 2255(h) provides:
A second or successive motion must be certified
as provided in section 2244 by a panel of the
appropriate court of appeals to contain—
(1) newly discovered evidence that, if
proven and viewed in light of the evidence
as a whole, would be sufficient to establish
by clear and convincing evidence that no
reasonable factfinder would have found
the movant guilty of the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by
the Supreme Court, that was previously
unavailable.
28 U.S.C. § 2241(a) provides:
Writs of habeas corpus may be granted by the
Supreme Court, any justice thereof, the district
courts and any circuit judge within their
respective jurisdictions. The order of a circuit
judge shall be entered in the records of the
district court of the district wherein the restraint
complained of is had.

3
INTRODUCTION
This case presents an important and recurring
question about the interpretation of 28 U.S.C. § 2255(e),
which permits a federal prisoner to seek a writ of habeas
corpus when the § 2255 remedy is “inadequate or
ineffective to test the legality of his detention.” A change
in the law established that petitioner was wrongly
subjected to an enhanced mandatory minimum sentence,
but petitioner had no remedy under § 2255. The Sixth
Circuit nonetheless refused to entertain his petition for
a writ of habeas corpus—while explicitly recognizing
that an identically situated individual to petitioner
“could pursue in the Fourth Circuit the habeas claim
that [petitioner] may not raise in the Sixth.” Pet. App
33a. The government itself has acknowledged this
“entrenched conflict” on what it recognized as an “issue
of great significance” in a petition seeking review of a
Fourth Circuit decision. Pet. Writ Cert., United States
v. Wheeler, 2018 WL 4846931, at *13, cert. denied, 139 S.
Ct. 1318 (2019) (“Wheeler Pet.”).
The Court denied that petition, but it did so at a time
when it was plausible that the split might resolve itself.
Instead, the division of authority has only gotten worse,
as courts of appeals have taken a variety of inconsistent
positions on the interpretation of § 2255(e). In fact, court
of appeals judges have repeatedly called for this Court’s
review.
This case illustrates the grave problems with this
split. Petitioner Ramon Hueso is serving a twenty-year
sentence for conspiracy to possess and distribute
methamphetamine. His minimum sentence was doubled
from ten years to twenty because the sentencing court

4
treated two prior Washington State convictions for
simple possession as felony drug offenses under 21
U.S.C. § 802. Mr. Hueso had faced a maximum sentence
of six months for those convictions under the state
sentencing guidelines. At the time of Mr. Hueso’s
sentencing, binding Ninth Circuit precedent counted a
prior conviction as a felony if the statutory maximum
exceeded one year, even if the defendant’s actual
sentence could not exceed a year under applicable
sentencing guidelines. But nine years later, the Ninth
Circuit reversed course. In United States v. ValenciaMendoza, 912 F.3d 1215 (9th Cir. 2019), the Ninth
Circuit held that a felony was defined by the sentencing
guidelines, not the statutory maximum. Id. at 1219-24. In
light of this correction, Mr. Hueso’s prior convictions
should never have counted as prior drug felonies.
At issue in this case is whether Mr. Hueso is barred
from seeking relief from his wrongly enhanced sentence,
even though his sentencing circuit has corrected the
erroneous statutory interpretation that gave rise to that
sentence. Section 2255 allows every federal prisoner to
file one § 2255 motion to vacate his conviction or
sentence in the court of conviction, as Mr. Hueso did in
2011. 28 U.S.C. § 2255(a), (f). A prisoner may file a
second or successive § 2255 motion only under severely
limited circumstances. 28 U.S.C. § 2255(h). But the
statute also provides, in § 2255(e), that when it “appears
that the remedy by motion is inadequate or ineffective
to test the legality of his detention,” a prisoner may file
a petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2241.

5
The circuits are severely split on when § 2255(e)—
referred to as the “savings clause”—applies. The Fourth
Circuit, along with the Seventh and Ninth Circuits,
holds that when the sentencing circuit retroactively
changes its interpretation of the statute controlling a
prisoner’s sentence after he has filed his first § 2255
motion, he may file a § 2241 petition by way of the
§ 2255(e) savings clause. But the Sixth Circuit held in
this case that a circuit court decision can never trigger
the savings clause. The Fifth, Tenth, and Eleventh
Circuits likewise hold that a change in circuit law can
never serve as a basis for seeking relief under the
savings clause, although they disagree among
themselves about when the savings clause does apply.
The dissenting judge below described the
consequences of this disarray as “Kafkaesque.” Pet.
App. 63a (Moore, J., dissenting). Because § 2241
petitions are filed in the district in which the petitioner
is confined, whether an individual can obtain relief—or
instead will continue to be imprisoned for, potentially,
decades—depends entirely on the government’s
decision on where to incarcerate him. Only the Court’s
intervention can cure this injury to the rule of law.
STATEMENT OF THE CASE
A. Mr. Hueso Was Subject to a Twenty-Year
Mandatory Minimum Sentence Even Though
He Had Faced a Maximum Sentence of Only
Six Months for the Underlying “Felony” Drug
Offenses.
Mr. Hueso’s federal sentence was doubled because of
a prior state crime for which he served forty days. In

6
2006, Mr. Hueso pled guilty to two counts of simple
possession of illegal drugs in violation of Washington
law. App’x Pet. Writ Habeas Corpus, Hueso v.
Barnhart, Case No. 6:18-cv-00176-DCR (E.D. Ky. June
8, 2018), ECF No. 1-2. Under state sentencing guidelines
at the time, a defendant with Mr. Hueso’s characteristics
faced a maximum penalty of six months. Id. But under
the state possession statute, violators with certain other
characteristics could face up to five years. See Wash.
Rev. Code § 69.50.4013 (2004); Wash. Rev. Code
§ 9.94A.505(2)(a)(i) (2002). The state court sentenced Mr.
Hueso to serve a total of forty days—well under his sixmonth maximum.
Three years later, a jury in the United States District
Court for the District of Alaska convicted Mr. Hueso of
conspiracy to distribute in violation of 21 U.S.C.
§ 841(b)(1)(A) (2006). Jury Verdicts, United States v.
Hueso, C/A No. 3:09-CR-00048-01-RRB (D. Alaska Oct.
7, 2009), ECF No. 35. The minimum sentence for that
offense was ten years—but if the defendant had
previously been convicted of a “felony drug offense,” it
doubled to twenty.
The government sought that enhanced penalty,
relying on Mr. Hueso’s 2006 Washington state
convictions. The district court agreed and sentenced Mr.
Hueso to twenty years. Pet. App. 81a. At the time,
controlling Ninth Circuit precedent held that state
convictions constituted felony drug offenses whenever
the statutory maximum sentence exceeded one year,
even if “the maximum sentence available under the state
sentencing guidelines” did not. United States v. Rosales,
516 F.3d 749, 758 (9th Cir. 2008). Applying that rule, the

7
court determined that Mr. Hueso’s two prior convictions
constituted felony drug convictions, thus triggering the
twenty-year mandatory minimum.
Mr. Hueso appealed his conviction and sentence. The
Ninth Circuit affirmed. United States v. Hueso, 420 F.
App’x 776 (9th Cir. 2011).
B. The Governing Law Changed to Sharply
Reduce the Mandatory Minimum.
In 2019, the Ninth Circuit overruled Rosales and
held that a state court conviction was not a predicate
felony for sentencing purposes when the maximum term
faced by the defendant under state sentencing
guidelines was less than one year. Valencia-Mendoza,
912 F.3d at 1219-24. Notably, the defendant in ValenciaMendoza had been convicted in 2007 of violating the
same Washington State statute as Mr. Hueso and had
been sentenced under the same terms. Id. at 1216-17
(describing defendant’s violation of Wash. Rev. Code
§ 69.50.4013 and sentencing under § 9.94A.505).
If Mr. Hueso’s case were to come before the Ninth
Circuit today, Valencia-Mendoza would unquestionably
mandate that his Washington State convictions not
qualify as predicate drug felonies. He thus would be
subject to a mandatory minimum sentence of only ten
years, not twenty years.
C. Post-Conviction Proceedings
First § 2255 Motion. In 2011, Mr. Hueso filed a
motion to vacate his sentence under 28 U.S.C. § 2255.
Am. Mot. Vacate, United States v. Hueso, No. 3:09-cr00048-RRB-1 (D. Alaska June 7, 2011), ECF No. 95. The

8
motion was denied, and the Ninth Circuit denied a
certificate of appealability. United States v. Hueso, No.
11-35855, 2013 U.S. App. LEXIS 16488 (9th Cir. May 15,
2013).
First § 2241 Petition. In 2013, Mr. Hueso—then
confined in Ashland, Kentucky—filed a pro se petition
for a writ of habeas corpus under 28 U.S.C. § 2241. Pet.
Writ Habeas Corpus, Hueso v. Sepanek, No. 0:13-cv00019 (E.D. Ky. Feb 13, 2013), ECF No. 1. Challenging
his enhanced sentence, Mr. Hueso cited this Court’s
decision in Carachuri-Rosendo v. Holder, 560 U.S. 563
(2010), which held that a prior state-law misdemeanor
conviction for which the defendant could have been
prosecuted for a federal felony was not an “aggravated
felony” for purposes of denying protection from removal
under the Immigration and Nationality Act. Id. at 566.
Mr. Hueso also cited the Fourth Circuit’s subsequent
decision in United States v. Simmons, 649 F.3d 237 (4th
Cir. 2011) (en banc), which held that the test for a felony
drug offense is whether the maximum penalties faced by
the specific defendant under the state’s sentencing
guidelines exceed one year, without reference to the
statutory maximum penalties a hypothetical defendant
could face. Id. at 243-50.
The district court denied Mr. Hueso’s petition. Hueso
v. Sepanek, Civ. A. No. 13-19-HRW, 2013 WL 4017117,
at *1 (E.D. Ky. Aug. 6, 2013). At the time, controlling
precedent in the Sixth Circuit held that § 2255(e) could
not be used to challenge sentencing. Id. at *5 (citing
Hayes v. Holland, 473 F. App’x 501, 501-02 (6th Cir.
2012)). Finding that the claims based on CarachuriRosendo were not claims of actual innocence, the court

9
held that Mr. Hueso could not file a § 2241 petition under
the savings clause. Id. at *5-6.
Current § 2241 Petition. Mr. Hueso filed his current
petition for a writ of habeas corpus on June 8, 2018.
Hueso v. Barnhart, Civ. A. No. 6:18-176-DCR (E.D. Ky.
2018), ECF No. 1. Among other arguments, he asserted
that his prior convictions did not qualify as felony drug
offenses for purposes of enhancing his sentence in light
of Carachuri-Rosendo and Simmons.
Between Mr. Hueso’s first § 2241 petition and his
current petition, the applicable law of the Sixth Circuit
changed. In Hill v. Masters, 836 F.3d 591 (6th Cir. 2016),
the court held that a prisoner could use a § 2241 petition
to challenge the application of a sentence enhancement.
Specifically, the Sixth Circuit ruled that requiring a
prisoner to serve an enhanced sentence “is a miscarriage
of justice” if the prisoner “lacks the predicate felonies to
justify” that sentence. Hill, 836 F.3d at 600. The district
court nevertheless denied relief to Mr. Hueso. Reading
Hill narrowly, the court held that Mr. Hueso’s claims did
not qualify for use of § 2255(e). Pet. App. 71a-72a.
Acknowledging that it was creating a split with the
Fourth Circuit, a divided Sixth Circuit panel affirmed on
the ground that Mr. Hueso could not invoke § 2255(e).
Pet. App. 2a-3a. The majority recognized that ValenciaMendoza had changed the substantive law of the Ninth
Circuit. But the panel majority held that Mr. Hueso was
not eligible to file a § 2241 petition because “his cited
cases do not render a § 2255 motion ‘inadequate or
ineffective’ within the meaning of § 2255(e).” Pet. App.
16a. The majority specifically held that circuit court
decisions cannot, as a matter of law, establish

10
inadequacy for purposes of the § 2255(e) savings clause.
Id.
Judge Moore dissented. Pet. App. 34a-65a. Under
this Court’s precedents, Judge Moore explained,
“[n]onconstitutional claims that could not have been
asserted on direct appeal can be raised on collateral
review only if the alleged error constituted ‘a
fundamental defect which inherently results in a
complete miscarriage of justice.’” Id. at 44a-45a (quoting
Stone v. Powell, 428 U.S. 465, 477 n.10 (1976)). Thus, the
test for when a prisoner can invoke the savings clause
must be whether he, “relying on a new, retroactive
decision, can demonstrate an ‘error sufficiently grave to
be deemed a miscarriage of justice or a fundamental
defect.’” Pet. App. 45a-46a (quoting Hill, 836 F.3d at
595).
Accordingly, Judge Moore said, there is no reason
why a circuit court decision like Valencia-Mendoza
cannot trigger the savings clause of § 2255(e) when it
reveals a fundamental defect in a conviction or sentence.
Judge Moore added that, contrary to the majority’s
arguments, allowing a change in circuit court law to
trigger the § 2255(e) savings clause does not create any
choice-of-law problem. Rather, in this case, all the Sixth
Circuit had to do was to apply a clear rule from the Ninth
Circuit case. “The Ninth Circuit ha[d] unambiguously
overruled its own precedent.” Pet. App. 61a. All that
was left was “applying this controlling precedent to
Hueso’s straightforward claim, and sending him back to
the Ninth Circuit for resentencing—which is
undisputedly how the Ninth Circuit would treat his
claim if he were able to file a § 2255 motion there.” Id.

11
Finally, Judge Moore explained that the Ninth
Circuit’s decision in Valencia-Mendoza was a “new,
retroactive decision” which rendered the application of
the sentencing enhancement in Mr. Hueso’s case “a
miscarriage of justice.” Pet. App. 46a, 54a. She reasoned
that Valencia-Mendoza (1) could not have been invoked
in the initial § 2255 proceeding (because the Ninth
Circuit did not decide the case until 2019), and (2) was a
retroactive decision under Ninth Circuit law. Pet. App.
54a, 58a. As a result, Judge Moore concluded, a faithful
application of both the Sixth Circuit’s own precedents
and this Court’s decisions all required allowing Mr.
Hueso’s current § 2241 petition to proceed.
REASONS FOR GRANTING THE PETITION
I. The Circuits Are Openly Split on the Question
Presented.
Review is merited because of the deep and
entrenched split on the circumstances under which
§ 2255 is inadequate or ineffective to test the merits of a
prisoner’s detention. Mr. Hueso’s petition would be
entertained in the Fourth, Seventh, and Ninth Circuits.
It was denied in the Sixth Circuit, and it would be denied
for different reasons in the Fifth, Tenth, and Eleventh
Circuits. In effect, Mr. Hueso was denied relief because
the government decided to incarcerate him in the Sixth
Circuit, rather than either sending him to the Fourth or
Seventh Circuit or keeping him where he was originally
sentenced, in the Ninth Circuit.

12
A. The Fourth, Seventh, and Ninth Circuits
Would Entertain Mr. Hueso’s Petition.
Mr. Hueso’s § 2241 petition would be allowed to
proceed in at least three circuits.
The Fourth Circuit allows challenges to a prisoner’s
sentence to go forward under § 2255(e) when that
challenge is based on a new, retroactive circuit court
change in statutory interpretation. United States v.
Wheeler, 886 F.3d 415 (4th Cir. 2018), cert. denied, 139 S.
Ct. 1318 (2019). In that case, Wheeler filed a § 2241
petition claiming that the Fourth Circuit’s en banc
decision in Simmons—handed down after Wheeler filed
his § 2255 petition—rendered his sentence illegal
because the North Carolina convictions on which his
minimum sentence was based no longer qualified as
predicate felonies. Id. at 420-21. The Fourth Circuit held
that § 2255 is inadequate and ineffective to test the
legality of a sentence when (1) the sentence was legal at
the time of sentencing, according to settled circuit or
Supreme Court law; (2) that settled law changed after
the prisoner’s direct appeal and first § 2255 petition and
was deemed to apply retroactively on collateral review;
(3) the prisoner cannot meet § 2255(h)(2)’s requirements
for successive petitions; and (4) because of the change in
law, “the sentence now presents an error sufficiently
grave to be deemed a fundamental defect.” Id. at 429.
The Fourth Circuit granted Wheeler’s petition, noting
that when a prisoner’s sentence “never should have been
subject to an increase in the first place, the error is
grave.” Id. at 430.
Likewise, the Seventh Circuit allows an individual to
invoke the savings clause to challenge a sentence based

13
on a circuit court decision changing the interpretation of
a statute. See Beason v. Marske, 926 F.3d 932, 938-39
(7th Cir. 2019) (holding that United States v. Spencer,
739 F.3d. 1027 (7th Cir. 2014), authorized relief under
§ 2241) In fact, in Beason, as the Seventh Circuit noted,
the government “conceded below—and does not argue
to the contrary on appeal—that a circuit court statutory
interpretation case” can be the basis for invoking the
savings clause. Id. at 935. The court explicitly accepted
the government’s concession: “Under [the Seventh
C]ircuit’s law, . . . a prisoner with a second or successive
statutory claim can secure relief based on a court of
appeals case.” Chazen v. Marske, 938 F.3d 851, 864 (7th
Cir. 2019) (Barrett, J., concurring) (emphasis omitted);
see id. at 864 n.3 (noting that Chazen was such a case).
The Ninth Circuit also interprets § 2255(e) to allow
habeas petitions like Mr. Hueso’s to proceed. Under
long-standing Ninth Circuit law, the savings clause
permits a § 2241 petition based on circuit court changes
in statutory interpretation when the petitioner raises a
claim of “actual innocence.” See, e.g., Alaimalo v. United
States, 645 F.3d 1042, 1048 (9th Cir. 2011). More
recently, the Ninth Circuit squarely held that claims of
“actual innocence” include claims that a prisoner’s
sentence was enhanced based on an invalid predicate.
That is, when a prisoner argues that his prior conviction
no longer qualifies as a predicate crime, he claims “that
he is thus actually innocent of the mandatory sentencing
enhancement.” Allen v. Ives, 950 F.3d 1184, 1190 (9th
Cir. 2020).
That is exactly what Mr. Hueso claims. Because
under Ninth Circuit case law his Washington convictions

14
are not qualifying predicate convictions, his § 2241
petition would be treated by the Ninth Circuit as an
actual innocence claim. That claim is based in a new
circuit court decision of statutory interpretation. Thus,
if the government had incarcerated Mr. Hueso in the
circuit in which he was convicted and sentenced, he
would have prevailed in the court of appeals.
B. The Circuits That Would Deny Relief Disagree
Among Themselves.
The Sixth Circuit and three others would deny Mr.
Hueso’s petition. Even among these four circuits,
however, there is a sharp and intractable disagreement
as to the reasons for that denial and whether other
prisoners may be granted relief.
The Fifth and Sixth Circuits hold that there are some
circumstances in which a prisoner may obtain relief
under the savings clause of § 2255(e) despite having
previously filed a first § 2255 motion and not qualifying
for a second or successive motion under § 2255(h). In the
Fifth Circuit, prisoners may use the savings clause to
bring actual innocence claims, but a challenge to a
sentencing enhancement is not considered an actual
innocence claim. Bradford v. Tamez (In re Bradford),
660 F.3d 226, 230 (5th Cir. 2011) (citing Kinder v. Purdy,
222 F.3d 209, 213-14 (5th Cir. 2000)). By contrast, the
Sixth Circuit does allows challenges to sentencing under
the savings clause. It instead denied Mr. Hueso’s
petition on the grounds that “circuit decisions cannot, as
a matter of law, establish § 2255’s inadequacy.” Pet. App.
16a.

15
The Tenth and Eleventh Circuits have held that
§ 2255 is never rendered inadequate or ineffective by a
change in law after a defendant’s conviction and
sentence are final. In Prost v. Anderson, 636 F.3d 578
(10th Cir. 2011) (Gorsuch, J.), the Tenth Circuit held that
changes in the law after a prisoner has filed his first
§ 2255 motion are irrelevant to the adequacy of § 2255.
So long as the prisoner could have argued—on appeal or
in his initial § 2255 motion—that the precedent
controlling his case was incorrect, § 2255 provided an
adequate opportunity to test the legality of his
detention. Prost, 636 F.3d at 584. The Eleventh Circuit
has since joined the Tenth Circuit’s approach. See
McCarthan v. Dir. of Goodwill Indus.-Suncoast, Inc.,
851 F.3d 1076, 1080 (11th Cir. 2017) (“We join the Tenth
Circuit . . . and hold that a change in caselaw does not
make a motion to vacate a prisoner’s sentence
‘inadequate or ineffective to test the legality of his
detention[.]’” (internal citations omitted)).
The explicit disagreement between the court below
and the Fourth Circuit is, therefore, symptomatic of
pervasive confusion among the lower courts about the
interpretation of § 2255(e). Moreover, it is now clear, as
it may not have been when the Court denied review in
Wheeler, that neither the explicit conflict between the
Sixth and Fourth Circuits, nor the more general
disagreement among the courts of appeals, will be
resolved without this Court’s intervention. When the
Court denied certiorari in Wheeler, the Eleventh Circuit
had recently gone out of its way to join the Tenth
Circuit’s restrictive interpretation of the savings

16
clause.1 But since Wheeler, it has become clear that there
is no trend toward the courts of appeals’ harmonizing
their views. In that time, both the Seventh Circuit and
the Ninth Circuit have reaffirmed, or possibly even
expanded, their respective interpretations of the
savings clause, which clash sharply with the Tenth and
Eleventh Circuits, as well as with the court below.
II. Federal Judges, and the Government Itself, Have
Recognized the Need for This Court’s
Intervention.
This circuit split is especially problematic. Most
important, it concerns whether an individual may
remain in prison for years, potentially even for decades,
because of a concededly incorrect interpretation of the
law.
Beyond that, ordinarily when there is a
disagreement among state courts or courts of appeals,
the litigants’ rights are determined in a jurisdiction to
which they have some connection. They have chosen to
live there or to do business there. But because a § 2241
petition must be brought in the district in which an
individual is confined, the resolution of the issue
presented by this case will depend entirely on where the

1

The Eleventh Circuit granted the prisoner’s petition for rehearing
en banc in order to overrule circuit precedent that was more
favorable to the prisoner. In fact, because the government at the
time did not disagree with circuit precedent, the court appointed an
amicus curiae to argue for the position that the en banc majority
eventually adopted. See Dir. of Goodwill Indus.-Suncoast, Inc., 851
F.3d at 1081; cf. United States v. Sineneng-Smith, 140 S. Ct. 1575
(2020).

17
Bureau of Prisons has decided to incarcerate the
prisoner. That is a circumstance over which the
prisoner’s adversary has complete control. The
arbitrariness of this state of affairs is vividly illustrated
in this case: The federal district courthouse in London,
Kentucky, where Mr. Hueso’s motion was originally
denied, is 57 miles by car from Virginia; had the
government chosen to confine Mr. Hueso on the other
side of that border, a district court in the Fourth Circuit
would have granted his petition under Wheeler.
Unsurprisingly, judges on both sides of the circuit
split have identified this issue as one that this Court
should resolve. Even the government has repeatedly
acknowledged that the split is important. And
commentators agree that, at this point, the courts of
appeals will not resolve this split on their own. See
Jennifer L. Case, Kaleidoscopic Chaos: Understanding
the Circuit Court’s Various Interpretations of § 2255’s
Savings Clause, 45 U. Mem. L. Rev. 1, 15 (2014);
Brandon Hasbrouck, Saving Justice: Why Sentencing
Errors Fall Within the Savings Clause, 28 U.S.C.
§ 2255(E), 108 Geo. L.J. 287, 293 (2019).
A. Court of Appeals Judges Have Called for This
Court’s Review.
Court of appeals judges have repeatedly called
attention to the importance of this question and asked
for this Court’s guidance on the scope of available relief.
Judge Moore, writing against the background of the
Ninth Circuit’s willingness to entertain § 2241 petitions
like Mr. Hueso’s, highlighted the harsh result of the
panel majority’s opinion:

18
The majority today withholds relief from
Hueso—whose legal arguments have now been
undisputedly accepted by the Ninth Circuit,
where he would be resentenced under a new rule
that would cut his mandatory minimum in half
and could result in his immediate release from
prison—because, nearly a decade ago, he did not
argue to the Ninth Circuit that its standing
interpretation of the law was incorrect.
Pet. App. 63a.
Judge Thapar of the Sixth Circuit—who favors the
Tenth Circuit’s approach over his own court’s—also
called for this Court to step in, noting that “sooner may
be better than later” because the “circuits are already
split” and the “rift is unlikely to close on its own.” Wright
v. Spaulding, 939 F.3d 695, 710 (6th Cir. 2019). He
emphasized that “so long as [the split] lasts, the vagaries
of the prison lottery will dictate how much postconviction review a prisoner gets,” because, for example,
a “federal inmate in Tennessee can bring claims” under
the savings clause “that would be thrown out were he
assigned to neighboring Alabama.” Id. As a result, he
said, “[l]ike cases are not treated alike” under the status
quo. Id.
Judges from other circuits have joined the calls for
Supreme Court intervention. Dissenting from the
Fourth Circuit’s denial of rehearing in Wheeler, Judge
Agee urged that questions regarding the scope of the
savings clause are of “significant national importance
and are best considered by the Supreme Court at the
earliest possible date.” United States v. Wheeler, 734 F.
App’x 892, 893 (4th Cir. 2018). The action of this Court,

19
he said, could “resolve the conflict separating the
circuit[s] . . . nationwide” so that “federal courts,
Congress, the Bar, and the public will have the benefit
of clear guidance and consistent results in this important
area of law.” Id. at 894.
B. The Government Has Repeatedly Recognized
the Appropriateness of This Court’s Review.
The government has also recognized that this issue
calls for this Court’s review—even after the government
changed its position and adopted the narrow Tenth and
Eleventh Circuit approach as its own. See, e.g., BIO,
McCarthan v. Collins, 138 S. Ct. 502 (2017) (No. 17-85),
2017 WL 4947338, at *25 (“[G]iven the significance of the
issue . . . this Court’s review would be warranted in an
appropriate case.”). In opposing petitions for certiorari,
the government consistently has limited itself to
arguments that particular cases offer poor vehicles for
the resolution of this question. See, e.g., BIO, Walker v.
English, 140 S. Ct. 910 (2020) (No. 19-52), 2019 WL
4750035, at *14 (“[N]otwithstanding that circuit conflict
and its importance . . .”); accord BIO, Higgs v. Wilson,
140 S. Ct. 934 (2020) (No. 19-401), 2019 WL 6910416; BIO,
Jones v. Underwood, 140 S. Ct. 859 (2020) (No. 18-9495).
In asking for this Court’s review in Wheeler, the
government highlighted how the disarray among the
circuits harms its own interest in uniform sentencing,
calling this “an issue of great significance.” Wheeler Pet.
*13. As the government specifically explained, “[t]he
disparate treatment of identical claims is particularly
problematic because habeas petitions are filed in a
prisoner’s district of confinement.” Id. at 25. This means
that “the cognizability of the same prisoner’s claim may

20
depend on where he is housed by the Bureau of Prisons
and may change if the prisoner is transferred.” Id.2
III. This Case Provides an Excellent Vehicle for
Resolving This Recurring Question.
This case presents a far better vehicle for review
than other cases that have been brought to the Court,
particularly in light of the calls for intervention from all
sides, the growing disagreement among the circuits, and
the gravity of the injustices created by that
disagreement. While the Court has denied certiorari in
cases where significant mootness and waiver issues
were present, none exist here.
Unlike in Wheeler, there is no risk of this case
becoming moot. Mr. Hueso is only halfway into his
twenty-year sentence. In addition, the question of the
meaning of § 2255(e) was fully briefed below. Contra
BIO, Walker, 2019 WL 4750035, at *18 (noting that “the
government . . . never filed even an appearance, much
less a brief, in either the district court or the court of
appeals”); accord BIO 25, Jones, No. 18-9495. And
throughout the proceedings below, the parties have
remained fully adverse on the question of whether Mr.
Hueso’s petition could proceed. Compare Wheeler, 886
F.3d at 422-23 (noting the government’s “about-face” on
the issue); McCarthan, 851 F.3d at 1081 (“Because both
McCarthan and the Warden argued that the Wofford
test or some version of it is correct, we appointed . . .
amicus curiae to argue that our precedents erroneously

2

See also Case, Kaleidoscopic Chaos, 45 U. Mem. L. Rev. at 15;
Hasbrouck, Saving Justice, 108 Geo. L.J. at 293.

21
interpreted the saving clause.”). Moreover, the decision
below expressly turned on the question presented. In
short, the issue in this case is live and fully developed for
this Court’s resolution. “Given the need for timely
resolution of the issue, the Court should grant certiorari
in this case and address it now.” Wheeler Pet. *29.
IV. The Sixth Circuit’s Decision Is Erroneous.
The court below repeatedly claimed that its position
was faithful to the text of § 2255. But the savings clause
of § 2255(e) is part of that text. Despite making
significant changes to § 2255, Congress has never
repealed the savings clause. And the court below, like
other courts of appeals that would reject Mr. Hueso’s
petition, utterly failed to give coherent content to the
savings clause. The manifest difficulty courts have had
in interpreting that textual provision does not justify
them in effectively disregarding it, or interpreting it in
a way that draws arbitrary distinctions between
similarly situated petitioners.
Section 2255 was adopted against a set of background
principles that, before its enactment, allowed federal
prisoners to seek post-conviction relief under § 2241.
When enacted, the Court explained, § 2255 “was
intended to afford federal prisoners a remedy identical
in scope to federal habeas corpus” under § 2241. Davis v.
United States, 417 U.S. 333, 343 (1974). That case, like
this one, involved a claim for collateral relief based on a
court of appeals’ changed interpretation of a federal
statute. In that context, the Court identified as a key
inquiry whether a “claimed error of law was ‘a
fundamental defect which inherently results in a

22
complete miscarriage of justice.’” Id. at 346 (quoting Hill
v. United States, 368 U.S. 424, 428 (1962)).
The court below emphasized that Congress has since
modified and limited § 2255 in various ways. But
Congress has never repealed the savings clause,
demonstrating Congress’ continued understanding that
the § 2255 remedy will sometimes be an “inadequate or
ineffective” means of “test[ing] the legality of [an
individual’s] detention.” See 28 U.S.C. § 2255(e).
Specifically, the savings clause presupposes that
there are cases in which, even though a court has
properly “den[ied] . . . relief” to a “prisoner who is
authorized to apply for relief” under § 2255, the “legality
of [the prisoner’s] detention” remains at issue and must
be resolved by a habeas court. See 28 U.S.C. § 2255(e).
The evident desire of the panel majority below to make
the savings clause, as nearly as possible, a dead letter—
a desire implemented by some other courts of appeals—
is flatly inconsistent with the consistent congressional
understanding reflected in the text.
Congress must be presumed to be aware of the
principle that this Court identified as foundational in
cases like this—that habeas corpus is available to correct
fundamental defects that result in a miscarriage of
justice. That principle also enables courts to avoid the
constitutional problem that would be presented by
continuing a detention unauthorized by law: “[a]
conviction or sentence imposed in violation of a
substantive rule is . . . contrary to law and, as a result,
void.” Montgomery v. Louisiana, 136 S. Ct. 718, 731
(2016). And in addition to improperly restricting
individual liberty, a court that refuses to recognize and

23
remedy its erroneous reading of a statute defining
crimes or setting punishments is effectively doubling
down on its arrogation of legislative powers. Whalen v.
United States, 445 U.S. 684, 689-90 (1980); see also
Wheeler, 886 F.3d at 430-31 (citing Hicks v. Oklahoma,
447 U.S. 343 (1980); United States v. Tucker, 404 U.S. 443
(1972)). That is why at least three courts of appeals have
recognized that the savings clause must be available
when there is a fundamental defect in an individual’s
conviction or sentence.
The approach taken by those courts of appeals, which
would have entertained Mr. Hueso’s habeas corpus
petition, also avoids significant anomalies. Unless the
savings clause permits relief for new statutory claims,
an individual may remain confined even once it is clear
that his acts did not constitute a crime—or, as in Mr.
Hueso’s case, that his sentence is based on an erroneous
view of the law. And unless the savings clause extends
to the decisions of courts of appeals, relief will be
unavailable in an especially compelling class of cases—
those in which the courts of appeals have reached a
consensus on the correct interpretation of a statute, such
that this Court does not have to intervene. That is, in
fact, exactly what happened here. The Ninth Circuit
decision on which Mr. Hueso relied, Valencia-Mendoza,
reflects the views of all the other courts of appeals that
have considered the issue. 912 F.3d at 1223-24 (citing
United States v. Brooks, 751 F.3d 1204, 1209-13 (10th
Cir. 2014); United States v. Haltiwanger, 637 F.3d 881,
883-84 (8th Cir. 2011); United States v. Simmons, 649
F.3d 237 (4th Cir. 2011) (en banc)). It is perverse that

24
general agreement that the law favors Mr. Hueso on this
point should effectively preclude relief.
Mr. Hueso’s sentencing court imposed the twentyyear term of imprisonment that it believed, at the time,
was the mandatory minimum. It is now undisputed that
the mandatory minimum, in a case identical to Mr.
Hueso’s, is ten years. Mr. Hueso’s claim is that this is a
“fundamental defect” that requires that his sentence be
reconsidered. The court below acknowledged that his
claim would succeed in another circuit; the courts of
appeals are unable to settle on an interpretation of the
savings clause of § 2255(e); and the availability of relief
to individuals in Mr. Hueso’s position depends on the
wholly irrelevant circumstance of where the
government chooses to confine them. Review by this
Court is therefore warranted.

25
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
SARAH M. KONSKY
Counsel of Record
DAVID A. STRAUSS
JENNER & BLOCK
SUPREME COURT
AND APPELLATE CLINIC
AT THE UNIVERSITY OF
CHICAGO LAW SCHOOL
1111 E. 60th St.
Chicago, IL 60637
773-702-9611
konsky@uchicago.edu

June 8, 2020

CATHRYN ARMISTEAD
ARMISTEAD
LAW GROUP
222 Second Ave. South
Suite 1700
Nashville, TN 37201

MATTHEW S. HELLMAN
SARAH J. CLARK
JENNER &
BLOCK LLP
1099 New York Ave., NW
Suite 900
Washington, DC 20001

APPENDIX

1a
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

RAMON HUESO,
Petitioner-Appellant,
No. 18-6299

v.
J.A. BARNHART, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of Kentucky at London.
No. 6:18-cv-00176—Danny C. Reeves, District Judge.
Decided and Filed: January 9, 2020
Before: MOORE, KETHLEDGE, and MURPHY,
Circuit Judges.
COUNSEL
ON BRIEF: Cathryn R. Armistead, ARMISTEAD
LAW GROUP, PLLC, Nashville, Tennessee, for
Appellant. Charles P. Wisdom, Jr., Kyle M. Melloan,
UNITED
STATES
ATTORNEY’S
OFFICE,
Lexington, Kentucky, for Appellee.

2a
MURPHY, J., delivered the opinion of the court in
which KETHLEDGE, J., joined. MOORE, J. (pp. 23–
43), delivered a separate dissenting opinion.
OPINION
MURPHY, Circuit Judge. Since the founding,
Congress has adjusted and readjusted the important
balance between an individual’s interest in correcting a
wrongful conviction and society’s interest in stopping
perpetual attacks on final criminal judgments. In the
Antiterrorism and Effective Death Penalty Act of 1996,
Congress adjusted this balance again, this time by
placing greater weight on the finality of completed cases.
This law generally gives federal prisoners just one
chance to overturn a final criminal judgment—by
alleging any and all errors in a single motion to vacate
under 28 U.S.C. § 2255. The law permits a second § 2255
motion only if prisoners show new evidence of their
innocence or a new rule of constitutional law from the
Supreme Court. 28 U.S.C. § 2255(h)(1)–(2). Since 1996,
therefore, prisoners have not been able to file a second
§ 2255 motion based on a new rule of statutory law from
the Supreme Court.
Unable to invoke new statutory decisions in a second
§ 2255 motion, prisoners have turned to a different
vehicle: a petition for a writ of habeas corpus under 28
U.S.C. § 2241. But they have faced a different obstacle:
§ 2255 has long barred federal prisoners from seeking
habeas relief unless they show that § 2255’s remedy is
“inadequate or ineffective to test the legality of [their]

3a
detention.” Id. § 2255(e). Courts disagree over when (if
ever) § 2255(h)’s limits on second § 2255 motions—when
combined with a new statutory decision issued after the
denial of a first motion—render § 2255 “inadequate or
ineffective” so as to permit a second round of litigation
under § 2241. Compare McCarthan v. Dir. of Goodwill
Industries-Suncoast, Inc., 851 F.3d 1076 (11th Cir. 2017)
(en banc), with Brown v. Caraway, 719 F.3d 583 (7th Cir.
2013). Our court has joined those that have made the
broadest inroads into the 1996 limits in § 2255(h). Unlike
some courts, for example, we allow new habeas petitions
even if a later Supreme Court decision affects only a
prisoner’s sentence, not just the prisoner’s conviction.
Hill v. Masters, 836 F.3d 591 (6th Cir. 2016).
Ramon Hueso asks us to go further still. He argues
that prisoners barred from filing a second § 2255 motion
may seek habeas relief under § 2241 based on new
decisions from the circuit courts, not just the Supreme
Court. Although the Fourth Circuit has blessed an
identical request, United States v. Wheeler, 886 F.3d 415,
428–29 (4th Cir. 2018), we must respectfully decline.
Among our reasons: Congress allowed prisoners to file a
second § 2255 motion only if the Supreme Court adopts
a new rule of constitutional law. 28 U.S.C. § 2255(h)(2).
We would write this limit out of the statute if we held
that new rules from the circuit courts (whether of
statutory or constitutional law) could render § 2255
“inadequate or ineffective” and trigger the right to a
second round of litigation under § 2241. We thus affirm
the denial of Hueso’s habeas petition.

4a
I.
The Supreme Court long ago recognized that “the
power to award the writ [of habeas corpus] by any of the
courts of the United States, must be given by written
law,” not common law. Ex parte Bollman, 8 U.S. 75, 94
(1807). This case concerns the relationship between two
of those written laws: 28 U.S.C. §§ 2241 and 2255. The
history of these laws—both before and after Congress’s
1996 changes—puts this case’s complicated statutory
question in its proper context.
A.
Section 2241, which allows courts to grant “[w]rits of
habeas corpus,” dates to the Judiciary Act of 1789. 28
U.S.C. § 2241(a); McCleskey v. Zant, 499 U.S. 467, 477–
78 (1991). The Supreme Court initially interpreted this
statute, like the common-law writ, not to apply to
prisoners who had been convicted by a court of
competent jurisdiction. Ex parte Watkins, 28 U.S. 193,
202–03 (1830). But the Court gradually expanded its
interpretation of the habeas statute to permit more and
more “collateral” attacks on final criminal judgments.
See McCleskey, 499 U.S. at 478–79.
This expansion caused two practical problems. For
one, courts could issue writs only “within their
respective jurisdictions,” so prisoners filed habeas
petitions in the court with jurisdiction over the prison
detaining them. See Rumsfeld v. Padilla, 542 U.S. 426,
446–47 (2004). This rule channeled the growing number
of petitions into the few courts with jurisdiction over
prisons, compelling those courts to review cases from
faraway locations. United States v. Hayman, 342 U.S.

5a
205, 213–14, 214 n.18 (1952). For another, “res judicata”
did not apply to common-law petitions. McCleskey, 499
U.S. at 479. Courts thus read the habeas statute as
allowing prisoners to file multiple requests. Id. This
reading “stimulated the filing of unmeritorious
successive petitions,” which were submitted “with the
hope, perhaps, of reaching the ear of a different judge[.]”
Louis E. Goodman, Use and Abuse of the Writ of Habeas
Corpus, 7 F.R.D. 313, 315 (1948).
In 1948, Congress passed legislation with remedies
tailored to each of these two problems. Pub. L. No. 80773, 62 Stat. 869, 964–68 (1948).
First Remedy: The 1948 law eliminated the need for
courts to review distant judgments by creating a new
cause of action in 28 U.S.C. § 2255. 62 Stat. at 967–68.
Section 2255 afforded prisoners the same rights granted
by the habeas statute (now moved to § 2241), but in a
“more convenient forum”: the sentencing court, not the
court of confinement. Hayman, 342 U.S. at 219. To
ensure that prisoners would use this new remedy, § 2255
directed courts not to entertain a habeas petition under
§ 2241 if a prisoner had not filed (or had unsuccessfully
filed) a § 2255 motion. 62 Stat. at 968; see, e.g., BroadusBey v. Diamond, 264 F.2d 242, 242–43 (6th Cir. 1959)
(per curiam).
That said, § 2255’s ban on habeas filings came with an
exception that we have come to call its “saving” or
“savings” clause (now in § 2255(e)). This clause clarified
that prisoners could not file habeas petitions under
§ 2241 “unless it also appears that the remedy by motion
[under § 2255] is inadequate or ineffective to test the
legality of [their] detention.” 62 Stat. at 968. Before

6a
1996, courts read this clause as “allow[ing] resort to
§ 2241 sparingly.” Prost v. Anderson, 636 F.3d 578, 588
(10th Cir. 2011); cf. Cohen v. United States, 593 F.2d 766,
770–71, 771 n.12 (6th Cir. 1979). For example, a
prisoner’s “lack of success” on the merits in a § 2255
proceeding did not show § 2255’s inadequacy. E.g.,
Litterio v. Parker, 369 F.2d 395, 396 (3d Cir. 1966) (per
curiam).
Second Remedy: The 1948 law also limited multiple
collateral filings. A (now-superseded) sentence in § 2255
said that a “sentencing court shall not be required to
entertain a second or successive [§ 2255] motion for
similar relief on behalf of the same prisoner.” 62 Stat. at
967. And a new § 2244 adopted similar language for
habeas petitions. Id. at 965–66. The Supreme Court
read these two provisions to codify the limits on multiple
filings that courts had been developing in common-law
fashion before 1948. Sanders v. United States, 373 U.S.
1, 12–14 (1963). By the 1990s, these judicially developed
limits—which the Court described as a “qualified
application of the doctrine of res judicata”—allowed
courts to dismiss successive petitions (those raising the
same issues decided in a prior petition) or abusive
petitions (those raising new issues that could have been
asserted in a prior petition). Schlup v. Delo, 513 U.S.
298, 318–19, 318 n.34 (1995).
Because the 1948 statute allowed courts to exercise
discretion when enforcing its limits on multiple filings,
courts developed various exceptions to these limits. By
the 1990s, prisoners could file a second collateral
challenge raising a new claim if they showed “cause” for
the delay in asserting the claim and “prejudice” from the

7a
alleged error. See McCleskey, 499 U.S. at 493–94;
United States v. Flores, 981 F.2d 231, 234–35, 234 n.4 (5th
Cir. 1993). They also could file a second collateral
challenge if they made “a proper showing of actual
innocence.” See Herrera v. Collins, 506 U.S. 390, 404–05
(1993). Changes in the Supreme Court’s interpretation
of a criminal statute implicated both of these judicial
exceptions. See United States v. Richards, 5 F.3d 1369,
1370–72 (10th Cir. 1993). A new interpretation that was
“novel” could prove cause. Reed v. Ross, 468 U.S. 1, 15
(1984). And a new interpretation that limited a statute’s
scope could show that a prisoner was innocent of the
offense under the statute’s narrowed reach. Bousley v.
United States, 523 U.S. 614, 623–24 (1998).
B.
In 1996, Congress replaced these judicially
developed limits on multiple § 2255 motions with a
categorical limit (now in § 2255(h)) that generally
prohibits second § 2255 motions. See Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), Pub. L.
No. 104-132, 110 Stat. 1214, 1220. Yet Congress adopted
two statutory exceptions to this new statutory limit that
codified narrower versions of the prior judicially
developed exceptions. A new change-in-law exception
allows a second motion based only on a “new rule of
constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was
previously unavailable.” 28 U.S.C. § 2255(h)(2). And a
new actual-innocence exception allows a second motion
based only on “newly discovered evidence that, if proven
and viewed in light of the evidence as a whole, would be
sufficient to establish by clear and convincing evidence

8a
that no reasonable factfinder would have found the
movant guilty of the offense[.]” Id. § 2255(h)(1).
This case mixes a rule that Congress revised with
one it left alone. Start with the revision: Congress did
not include changes in statutory interpretation as a
ground for a second § 2255 motion. Section 2255(h)
instead requires either a new constitutional rule by the
Supreme Court or new evidence of innocence. Now for
what remained: Congress did not touch § 2255(e)’s text
allowing a habeas petition under § 2241 if § 2255’s
“remedy by motion is inadequate or ineffective to test
the legality of [a prisoner’s] detention.” Putting the two
together, prisoners have argued that Congress—in
imposing § 2255(h)’s new limits—meant to impliedly
keep the old exception for changes in statutory
interpretation by rendering § 2255 inadequate under
§ 2255(e) when those changes occur. Under this view,
prisoners may seek relief based on a new statutory
interpretation, but they now must do so with a § 2241
petition (not a § 2255 motion) in their court of
confinement (not their sentencing court).
Circuit courts fall along a spectrum in addressing this
argument. Some reject it outright because Congress did
not include a statutory-changes exception in § 2255(h).
E.g., Prost, 636 F.3d at 585–86. Many others hold that
§ 2255(h)’s limits render § 2255 inadequate in “unusual”
situations. In re Dorsainvil, 119 F.3d 245, 251 (3d Cir.
1997). These courts permit new habeas petitions if
prisoners show both that a Supreme Court decision
adopting a new statutory interpretation proves their
“actual innocence,” and that they “had no earlier
opportunity” to assert that new interpretation in their

9a
initial § 2255 motion. Id. at 251–52; Triestman v. United
States, 124 F.3d 361, 377 (2d Cir. 1997). Still others allow
§ 2241 petitions for new statutory cases that affect a
prisoner’s sentence, even if the case does not prove the
prisoner’s innocence of the offense. Wheeler, 886 F.3d at
427–28; Brown v. Caraway, 719 F.3d 583, 586–88 (7th
Cir. 2013).
Since 1996, our court has moved from near one end of
this spectrum to the other. Early cases reserved
whether § 2255(h)’s limits on successive filings could
render § 2255 inadequate even if a new statutory
decision proved a prisoner’s innocence. Charles v.
Chandler, 180 F.3d 753, 756–58 (6th Cir. 1999) (per
curiam). Eventually, though, we found that § 2255(h)’s
limits could render § 2255 inadequate if the Supreme
Court changed its interpretation of an offense and
prisoners lacked a reasonable opportunity to advocate
for that interpretation in their initial § 2255 motion. See
Wright v. Spaulding, 939 F.3d 695, 702–03 (6th Cir. 2019)
(discussing Martin v. Perez, 319 F.3d 799 (6th Cir. 2003)).
We cautioned that this rule applied only when prisoners
made “a claim of actual innocence,” Bannerman v.
Snyder, 325 F.3d 722, 724 (6th Cir. 2003), not when they
merely “challenge[d] their sentences,” United States v.
Peterman, 249 F.3d 458, 462 (6th Cir. 2001). That actualinnocence limit gave way in 2016. In Hill, we held that
a new Supreme Court decision as to sentencing could
render § 2255(h)’s limits inadequate (and permit a
habeas petition) if the decision showed a sentencing
error that was “sufficiently grave to be deemed a
miscarriage of justice or a fundamental defect.” 836 F.3d
at 595. Yet Hill still requires prisoners to show that

10a
their first § 2255 motion did not give them a “reasonable
opportunity” to advocate for the interpretation that the
Supreme Court later accepted. Wright, 939 F.3d at 705.
C.
In this case, Ramon Hueso asks us to take a step
beyond Hill by further contracting § 2255(h)’s limits on
second motions and expanding § 2255(e)’s allowance for
habeas petitions.
Hueso’s Criminal Case & § 2255 Motion. In October
2009, a district court in Alaska convicted Hueso of
conspiring to distribute and possess with intent to
distribute illegal drugs, in violation of 21 U.S.C. §§ 846
and 841(a). The default sentencing range for Hueso’s
offense fell between 10 years and life imprisonment. 21
U.S.C. § 841(b)(1)(A) (2006). If, however, Hueso had “a
prior conviction for a felony drug offense,” his
mandatory-minimum sentence jumped from 10 years to
20 years. Id. Federal law defines “felony drug offense”
as “an offense that is punishable by imprisonment for
more than one year under any law of the United States
or of a State or foreign country that prohibits or restricts
conduct relating to” certain controlled substances. Id.
§ 802(44).
At Hueso’s January 2010 sentencing, the
government asked for the 20-year mandatory minimum
because the State of Washington had twice convicted
Hueso of possessing illegal drugs. Wash. Rev. Code
§ 69.50.4013(1) (2004). Under the state statute, these
offenses carried a maximum penalty of five years, which
exceeded the one-year requirement in the federal
definition of felony drug offense. See id. § 69.50.4013(2)

11a
(2004); id. § 9A.20.021(1)(c) (2004). Under the state
sentencing guidelines, however, Hueso faced a
maximum six-month term. Id. § 9.94A.505(2)(a)(i)
(2002); 2002 Wash. Legis. Serv. Ch. 290, § 8 (S.S.H.B.
2338) (West). And he in fact received concurrent 40-day
sentences. When the district court sentenced Hueso,
Ninth Circuit precedent held that state convictions like
Hueso’s were felony drug offenses so long as “the state’s
statutory maximum sentence” exceeded one year, even
if “the maximum sentence available under the state
sentencing guidelines” did not. United States v. Rosales,
516 F.3d 749, 758 (9th Cir. 2008). Hueso did not contest
this point, and the district court sentenced him to the
longer 20-year mandatory minimum. The Ninth Circuit
affirmed. United States v. Hueso, 420 F. App’x 776, 776
(9th Cir. 2011).
Hueso moved to vacate his sentence under § 2255 in
the Alaska court that sentenced him. He again did not
challenge his 20-year mandatory-minimum sentence.
The court denied his motion, and the Ninth Circuit
denied a certificate of appealability. United States v.
Hueso, No. 11-35855, 2013 U.S. App. LEXIS 16488 (9th
Cir. May 15, 2013).
Hueso’s § 2241 Petitions. In 2013, Hueso filed his
first habeas petition under § 2241 in the Eastern District
of Kentucky, the district in which he is confined. This
petition challenged his 20-year sentence on the ground
that his state convictions were not “felony drug
offenses” and that his mandatory minimum should have
been 10 years, not 20 years. Hueso relied on two
statutory decisions. The first was Carachuri-Rosendo v.
Holder, 560 U.S. 563 (2010). That case asked whether a

12a
lawful permanent resident who had pleaded no contest
to a state’s misdemeanor drug-possession offense (after
having pleaded guilty to an earlier drug-possession
offense) had “been convicted of an ‘aggravated felony’”
under the immigration laws. Id. at 566–70. Those laws
define “aggravated felony,” among other ways, as
incorporating the felonies in the Controlled Substances
Act (or state equivalents). Id. at 567. That act, in turn,
allows the government to treat drug possession as a
federal “felony” if a defendant has a prior possession
conviction. Id. at 567–68. The government argued that
Carachuri-Rosendo’s misdemeanor offense was an
“aggravated felony” because he had a prior possession
conviction and could have been charged with a federal
felony. The Court disagreed, holding that the statute did
not cover those whose conduct “hypothetically” “could
have received felony treatment under federal law.” Id.
at 576.
The second (more relevant) decision came after the
Supreme Court remanded a circuit case interpreting
“felony drug offense” for reconsideration in light of
Carachuri-Rosendo. United States v. Simmons, 649
F.3d 237, 239 (4th Cir. 2011) (en banc). Like the Ninth
Circuit, the Fourth Circuit had read “felony drug
offense” to cover a state crime with a statutory
maximum exceeding one year, even if the defendant
could not have been sentenced to more than a year under
the sentencing guidelines. Id. at 241. But a divided en
banc court relied on Carachuri-Rosendo to overrule its
precedent. Id. Simmons held that courts must focus on
the maximum penalties that a specific defendant faces
(under the sentencing guidelines), not the maximum

13a
penalties that any defendant could face (under the
statutory maximum). See id. at 243–50.
The district court denied Hueso’s first habeas
petition. Because of our then-existing cases interpreting
§ 2255(e) in 2013, Hueso could not challenge sentencing
errors in a habeas petition. Hueso v. Sepanek, No. 13cv-19, 2013 WL 4017117, at *5 (E.D. Ky. Aug. 6, 2013).
In 2018, after our Hill decision expanded our
interpretation of § 2255(e), Hueso filed a second habeas
petition in the Eastern District of Kentucky. He again
relied on Carachuri-Rosendo and Simmons. The
district court again denied relief. It held (procedurally)
that Hueso may not file a habeas petition to challenge
this alleged sentencing error even after Hill and
(substantively) that Hueso’s state convictions still
qualified as felony drug offenses under Ninth Circuit
precedent.
A new Ninth Circuit case from 2019 has since
undercut the substantive portion of the district court’s
opinion. United States v. Valencia-Mendoza, 912 F.3d
1215, 1219–24 (9th Cir. 2019). When considering a
definition of “felony” like the definition of “felony drug
offense,” Valencia-Mendoza agreed with the Fourth
Circuit’s Simmons decision and overruled earlier Ninth
Circuit cases as irreconcilable with Carachuri-Rosendo.
Id. Valencia-Mendoza held that courts “must consider
both a crime’s statutory elements and sentencing factors
when determining whether an offense is ‘punishable’” by
a term exceeding a year. Id. at 1224 (emphasis omitted).

14a
II.
Hueso challenges his 20-year minimum sentence
based on the Supreme Court’s Carachuri-Rosendo
decision, the Fourth Circuit’s Simmons decision, and the
Ninth
Circuit’s
Valencia-Mendoza
decision.
Understandably so. Simmons and Valencia-Mendoza
both cite Carachuri-Rosendo to hold that statutory
definitions like the definition of “felony drug offense”
require courts to consider the maximum prison term
that a specific defendant may receive under a state’s
sentencing guidelines. But Hueso has already litigated
one § 2255 motion, and Hueso’s cited cases do not permit
him to file a second § 2255 motion because they do not
contain new evidence of innocence or new constitutional
rules. 28 U.S.C. § 2255(h)(1)–(2). Hueso instead argues
that these cases make § 2255’s remedy “inadequate or
ineffective” within the meaning of § 2255(e), which, he
says, allows him to pursue this sentencing claim in a
§ 2241 habeas petition.
At the outset, we clarify what we do and do not
decide. We do not opine on the merits of Hueso’s claim
that his state convictions are not “felony drug offenses.”
“[D]iverse viewpoints” exist on this “difficult question.”
See United States v. Recinos-Hernandez, 772 F. App’x
115, 117 (5th Cir. 2019) (per curiam); Simmons, 649 F.3d
at 250–58 (Agee, J., dissenting).
We likewise do not opine on whether Hueso’s
sentencing challenge alleges the type of statutory error
that can be asserted on collateral review at all (even in a
timely filed first § 2255 motion). The Supreme Court has
held that, unlike constitutional or jurisdictional errors,
statutory errors do “not provide a basis for collateral

15a
attack unless the claimed error constituted ‘a
fundamental defect which inherently results in a
complete miscarriage of justice.’” United States v.
Addonizio, 442 U.S. 178, 185 (1979) (quoting Hill v.
United States, 368 U.S. 424, 428 (1962)). The circuit
courts have reached different conclusions about the
types of sentencing errors that rise to this fundamentaldefect level. See Snider v. United States, 908 F.3d 183,
192 n.5 (6th Cir. 2018). All agree that prisoners may
challenge statutory errors resulting in a sentence that
“was in excess of the maximum authorized by law.” 28
U.S.C. § 2255(a); see, e.g., Snider, 908 F.3d at 189. And
we have held that the relevant “law” includes the oncemandatory sentencing guidelines, which “had the force
and effect of law.” Hill, 836 F.3d at 599 (citation
omitted). We thus allowed a prisoner to challenge an
unlawful career-offender enhancement that resulted in a
sentence (300 months) exceeding the mandatory
guidelines range that would apply without the
enhancement (235 to 293 months). Id. at 593, 599. Yet
we have since held that this logic does not extend to the
now-advisory guidelines. Bullard v. United States, 937
F.3d 654, 658–61 (6th Cir. 2019). Here, Hueso was
sentenced under the advisory guidelines. And while he
argues that his mandatory-minimum sentence was
wrongly increased, his 20-year sentence still fell below
what would have been the maximum allowed by law (life
imprisonment)
even
without
the
challenged
enhancement. This type of challenge to a mandatoryminimum enhancement thus may or may not be
cognizable in a properly filed first motion under § 2255.
We need not decide this issue.

16a
Rather, we decide only that Hueso cannot pursue
this type of claim in habeas under § 2241 because his
cited cases do not render a § 2255 motion “inadequate or
ineffective” within the meaning of § 2255(e). We reach
that result for two reasons. His two circuit decisions
cannot, as a matter of law, establish § 2255’s inadequacy.
And his lone Supreme Court decision issued when his
direct appeal was pending, so he could have cited it in
the ordinary course.
A.
We have adopted a “reasonable-opportunity
standard” for prisoners seeking to prove § 2255’s
inadequacy under § 2255(e). Wright, 939 F.3d at 703.
Under this standard, prisoners must show “that binding
adverse precedent (or some greater obstacle) left [them]
with ‘no reasonable opportunity’ to” assert their legal
claim on the front end—in their initial § 2255 motion. Id.
(quoting In re Davenport, 147 F.3d 605, 610 (7th Cir.
1998)). But we have yet to identify the kind of statutory
changes required on the back end—when § 2255(h) bars
another motion. Does a new statutory decision from a
circuit court suffice to show § 2255’s inadequacy?
Our cases suggest not. They have all involved a new
Supreme Court decision. In Hill, we “reiterate[d]” that
we “addresse[d] only a narrow subset of § 2241
petitions”—those involving a “a subsequent, retroactive
change in statutory interpretation by the Supreme
Court[.]” 836 F.3d at 599–600. And our “actualinnocence” cases likewise have all been “based upon
Supreme Court decisions announcing new rules of
statutory construction unavailable for attack under
section 2255.” Hayes v. Holland, 473 F. App’x 501, 501–

17a
02 (6th Cir. 2012) (per curiam); see, e.g., Harrington v.
Ormond, 900 F.3d 246, 248–50 (6th Cir. 2018); Wooten v.
Cauley, 677 F.3d 303, 306 (6th Cir. 2012); Martin, 319
F.3d at 804–05. We now turn the facts of our prior cases
into a holding. In addition to whatever else our
reasonable-opportunity standard demands, it requires a
Supreme Court decision that adopts a new
interpretation of a statute after the completion of the
initial § 2255 proceedings. This requirement follows
both from § 2255’s text and structure and from the
backdrop against which Congress enacted § 2255(h)’s
limits in 1996.
1. Text and Structure
In recent decades, the Supreme Court has insisted
that statutory interpretation depends on statutory text.
E.g., Ross v. Blake, 136 S. Ct. 1850, 1856 (2016). Its
approach “calls on the judicial interpreter to consider
the entire text, in view of its structure and of the
physical and logical relation of its many parts.” Antonin
Scalia & Bryan A. Garner, Reading Law: The
Interpretation of Legal Texts 167 (2012); Star Athletica,
L.L.C. v. Varsity Brands, Inc., 137 S. Ct. 1002, 1010
(2017).
Following these
§ 2255(e)’s language:

instructions,

we

begin

with

An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for
relief by motion pursuant to this section, shall not
be entertained if it appears that the applicant has
failed to apply for relief, by motion, to the court
which sentenced him, or that such court has

18a
denied him relief, unless it also appears that the
remedy by motion is inadequate or ineffective to
test the legality of his detention.
28 U.S.C. § 2255(e). Under this text, prisoners who have
had a § 2255 motion “denied” must show that the
statute’s remedy (that is, its “means” for seeking relief)
is inadequate or ineffective (that is, “insufficient” or
“incapable”) to test (that is, “try”) a legal challenge to
their detention. See, e.g., Bouvier’s Law Dictionary
(1934) (“remedy”); Webster’s New Int’l Dictionary 1254,
1271 (2d. ed. 1934) (“inadequate” and “ineffective”); 11
Oxford English Dictionary 220 (1st ed. 1933) (“test”).
Notably, this statutory language does not give courts
license to ask whether they consider § 2255 to be
inadequate or ineffective in the abstract. Rather, “the
inadequacy or ineffectiveness must relate specifically to
a procedural deficiency in ‘test(ing) the legality of [a
prisoner’s] detention.’” Cain v. Markley, 347 F.2d 408,
410 (7th Cir. 1965). So § 2255(e) asks only whether
§ 2255’s motion is sufficient to assert a claim on the
merits; it does not guarantee “success” on the merits.
Litterio, 369 F.2d at 396.
This plain language readily explains why, as a
general matter, § 2255(h)’s limits on successive motions
do not render § 2255’s remedy inadequate or ineffective
under § 2255(e). As all courts agree, the initial § 2255
motion provides a sufficient means to test a prisoner’s
claims even though § 2255(h)’s limits bar the prisoner
from succeeding on any later-filed claims. See Hill, 836
F.3d at 594; Davenport, 147 F.3d at 608; Dorsainvil, 119
F.3d at 251.

19a
This plain language might also suggest the answer to
the question presented here: Should an initial § 2255
motion be considered “inadequate or ineffective” under
§ 2255(e) if the precedent existing at the time of that
motion bars a prisoner from succeeding on a claim? The
answer is “no” according to those courts that distinguish
between testing a claim and succeeding on a claim. See
Prost, 636 F.3d at 590; McCarthan, 851 F.3d at 1085–95.
Mistaken precedent may prove that the “circuit law is
inadequate,” but it does nothing to prove that “the § 2255
remedial vehicle is inadequate or ineffective to the task
of testing the argument.” Prost, 636 F.3d at 590.
Our court, by contrast, has followed a less textual
path. We have shaped and reshaped our standards
interpreting the phrase “inadequate or ineffective” as if
we had the authority to decide this question in commonlaw fashion. We first required a “showing of ‘actual
innocence.’” Martin, 319 F.3d at 804. We then molded
that requirement into a multi-part test. Wooten, 677
F.3d at 307–08. We then adopted different tests for
different claims. Hill, 836 F.3d at 594–95.
Yet we do not read our cases as jettisoning § 2255’s
text altogether. “[S]uch a casual disregard of the rules
of statutory interpretation” would put us on a collision
course with the Supreme Court’s teaching that “a court’s
proper starting point lies in a careful examination of the
ordinary meaning and structure of the law itself.” Food
Mktg. Inst. v. Argus Leader Media, 139 S. Ct. 2356, 2364
(2019). This view of our cases would also render
Congress’s 1996 limits on successive filings superfluous.
Before then, courts had been engaging in precisely that
sort of common-law development of the limits on

20a
multiple filings. Cf. McCleskey, 499 U.S. at 489. But
Congress toppled this judicial framework with § 2255(h).
Section 2255(e) should not be read as impliedly
resurrecting it—in the court of confinement rather than
the sentencing court, no less. That view of our cases
would undermine both Congress’s 1996 law and its 1948
law.
We instead implement our “reasonable-opportunity
standard” in a manner that best reconciles it with
§ 2255’s text and structure as a whole. When assessed
from that view, our standard must require a new
Supreme Court decision after the initial § 2255 motion.
The Supreme Court has explained that the
“[i]nterpretation of a phrase of uncertain reach”—as we
have interpreted the phrase “inadequate or ineffective”
to be—“is not confined to a single sentence when the text
of the whole statute gives instruction as to its meaning.”
Star Athletica, 137 S. Ct. at 1010 (quoting Maracich v.
Spears, 570 U.S. 48, 65 (2013)). Here, for example, no
reasonable interpreter would say that § 2255(f)’s oneyear statute of limitations makes § 2255’s remedy
“inadequate or ineffective” whenever a prisoner blows
that deadline. That reading would obliterate this statute
of limitations because prisoners could always bypass the
time limit for filing a § 2255 motion by substituting a
§ 2241 petition in its place. Wooten, 677 F.3d at 307. And
“there can be no justification for needlessly rendering
[these two provisions] in conflict if they can be
interpreted harmoniously.” Scalia & Garner, supra, at
180.
This harmonious-reading rule compels the conclusion
that § 2255’s remedy cannot be viewed as “inadequate or

21a
ineffective” unless a prisoner identifies a new Supreme
Court decision. Without that rule, we would interpret
§ 2255(e) to abolish two other limits in § 2255. To begin
with, § 2255(h)(2) tells courts that new constitutional
rules must come from “the Supreme Court” for those
rules to authorize another round of § 2255 litigation. But
if we held that new statutory rules from the circuit
courts sufficed to render § 2255’s remedy “inadequate or
ineffective,” prisoners could assert new statutory claims
(under § 2241) more easily than they could assert new
constitutional claims (under § 2255(h)(2)). That reading
generates an “odd” dichotomy. Chazen v. Marske, 938
F.3d 851, 864 (7th Cir. 2019) (Barrett, J., concurring).
Indeed, whatever the phrase “inadequate or ineffective”
means, it cannot be read to distinguish statutory claims
from constitutional claims. So if new statutory rules
from the circuit courts could trigger § 2255(e) because
prisoners cannot vindicate the new rules under § 2255,
new constitutional rules from the circuit courts likewise
would have to trigger § 2255(e) because prisoners also
could not vindicate them under § 2255. But that
interpretation altogether erases § 2255(h)(2)’s
requirement of a new Supreme Court decision for
successive litigation.
In addition, § 2255(f) postpones the start date for the
running of its one-year time limit for first § 2255 motions
if prisoners rely on new statutory rights, not just new
constitutional rights. See Jamieson v. United States, 692
F.3d 435, 439 (6th Cir. 2012) (per curiam); Prost, 636 F.3d
at 585–86. The statute does so by tying the running of
this limitations period to “the date on which the right
asserted was initially recognized by the Supreme Court,

22a
if that right has been newly recognized by the Supreme
Court and made retroactively applicable to cases on
collateral review[.]” 28 U.S.C. § 2255(f)(3). So a circuit
change in interpretation (unlike a Supreme Court
change) does not trigger the delayed start date for initial
§ 2255 motions. Rather, § 2255(f) treats § 2255 motions
as untimely when they are based on circuit cases that
arise one year after a final judgment (the default start
date for the limitations period). If, however, we allowed
prisoners to use those same circuit cases to proceed
through the habeas backdoor—which has no statute of
limitations, see Wooten, 677 F.3d at 306—then the
“Supreme Court” limit in § 2255(f)(3) is no limit at all.
Under this view, prisoners who could not satisfy that
Supreme Court requirement could simply file a § 2241
petition instead.
In sum, we must read our standards in a way that
harmonizes § 2255(e) with § 2255(f)(3) and § 2255(h)(2).
This view of the section as a whole shows that later
circuit decisions do not suffice to prove that an initial
§ 2255 motion is inadequate or ineffective to test a claim.
2. Statutory History
Apart from § 2255’s text and structure, we must read
the current § 2255 against the backdrop of its “statutory
history—the statutes repealed or amended by the
statute under consideration.” Scalia & Garner, supra, at
256; see, e.g., United States v. Wong Kim Ark, 169 U.S.
649, 653–54 (1898). This statutory history, unlike
legislative history, itself reflects the constitutional
bicameralism and presentment process and thus is
vastly more difficult to manipulate than legislative
history. Cf. Scalia & Garner, supra, at 256. For two

23a
reasons, this historical look confirms that Congress’s
1996 limits on successive motions in § 2255(h) cannot
render § 2255 “inadequate or ineffective” without, at the
least, a new Supreme Court precedent.
Reason One: Pre-1996 Limits. As noted, courts had
been imposing judicially developed limits on multiple
filings before Congress adopted § 2255(h)’s statutory
limits. See Schlup, 513 U.S. at 318 & n.34. And, as far as
we are aware, no court found that those judicial limits
rendered § 2255 inadequate when they precluded new
filings—even though § 2255(e)’s language dates back to
1948. Cf. Richards, 5 F.3d at 1370–72. The “cause”
exception to those limits is instructive here because it
adopted a test similar to our “reasonable-opportunity
standard.” Wright, 939 F.3d at 703. This exception
allowed prisoners to file another collateral challenge
only if a new claim had not been “reasonably available”
in prior challenges. Murray v. Carrier, 477 U.S. 478, 488
(1986).
If, before 1996, a claim was considered
“reasonably available” under these cause rules (and so
barred by the judicial limits on successive filings), id., it
would make little sense to find today that a prisoner
lacked a “reasonable opportunity” to assert that claim
under § 2255(e). We should not read Congress’s addition
of § 2255(h)—which strengthened the limits on
successive motions—as paradoxically relaxing those
limits by expanding the meaning of § 2255(e)’s words.
And notably, when prisoners sought to establish
“cause” with a new precedent, the Supreme Court’s
cases suggested that nothing but a new Supreme Court
precedent would do. The new precedent must have
departed so dramatically from prior cases that it could

24a
be said to have created a new claim that had not been
previously “available.” Smith v. Murray, 477 U.S. 527,
537 (1986). The Court “identified several circumstances
in which a new rule representing a clear break with the
past” might satisfy this test. 1 Brian R. Means,
Postconviction Remedies § 24:15, at 891–92 (2019). Each
circumstance contemplated a new Supreme Court
decision: The Court might “explicitly overrule one of its
precedents”; it might “overturn a longstanding and
widespread practice” that had been adopted by “a nearunanimous body of lower court authority”; or it might
“disapprove of a practice the Court arguably had
sanctioned in prior cases.” Id. (discussing Ross, 468 U.S.
at 17–18). If, by contrast, a circuit’s decisions precluded
a claim—that is, if the claim was “unacceptable to that
particular court at that particular time,” Engle v. Isaac,
456 U.S. 107, 130 n.35 (1982) (citation omitted)—the
prisoner could not establish “cause” for failing to raise
the claim from that fact alone. See Bousley, 523 U.S. at
623–24. Yet if we now held that this same circuit
precedent could show § 2255’s inadequacy under
§ 2255(e) (and allow a prisoner to pursue a habeas claim
under § 2241), our conclusion would have rendered
meaningless these preexisting “cause” requirements.
Indeed, we would upend more than just the
preexisting limits governing successive filings (which
have now been superseded by § 2255(h)). The Supreme
Court’s “cause” rules continue to apply outside the
context of successive petitions. If, for example, a
prisoner fails to raise a claim on direct appeal that the
prisoner seeks to litigate in a § 2255 motion, courts will
consider the claim procedurally defaulted unless the

25a
prisoner shows cause and prejudice (or actual
innocence). E.g., United States v. Frady, 456 U.S. 152,
166–68 (1982). Because changes in circuit precedent do
not generally suffice to show cause, see, e.g., Damon v.
United States, 732 F.3d 1, 4–5 (1st Cir. 2013), those same
changes should not suffice to show that § 2255 is
inadequate.
Reason Two: Choice-of-Law Problems.
The
problems that Congress sought to fix in 1948 confirm the
need for a new Supreme Court decision. By placing a
prisoner’s collateral challenge in the same court that
sentenced the prisoner, § 2255 ended “the unseemly
spectacle of federal district courts trying the regularity
of proceedings had in courts of coordinate jurisdiction.”
John J. Parker, Limiting the Abuse of Habeas Corpus,
8 F.R.D. 171, 172–73 (1949). The rule that only a later
Supreme Court decision may trigger § 2255(e)’s
authorization for new habeas filings at least lessens the
potential friction between the sentencing court (which
hears the § 2255 motion) and the court of confinement
(which hears the § 2241 petition). Any new decision from
the Supreme Court binds both courts. So when
considering a § 2241 petition relying on that new
decision, the court of confinement need not “grade” the
opinions of the sentencing circuit. Its marching orders
will have come from the Supreme Court.
If we held that circuit decisions could prove § 2255’s
inadequacy, by contrast, the statute would retain some
of the “difficulties that had arisen in administering the
habeas corpus jurisdiction of the federal courts” before
1948. Hayman, 342 U.S. at 219. Prisoners often may be
sentenced within one circuit (whose law would apply to

26a
a § 2255 motion), but confined in another (whose law
would apply to a § 2241 petition). What happens if the
circuit precedent in the court of confinement is more
favorable to the prisoner’s claim than the circuit
precedent in the sentencing court? Even before 1996,
prisoners suggested that the sentencing court’s less
favorable caselaw rendered a § 2255 motion inadequate
and allowed resort to habeas in the court of confinement.
If true, some courts reasoned, “a prisoner would have
the right in every instance to retest the legality of his
detention” “because of a possible application of different
legal principles by the court confronted with a habeas
corpus petition and the court which has already ruled on
a section 2255 motion[.]” Cain, 347 F.2d at 410. That is,
a rule allowing circuit decisions to trigger § 2255(e)
would give prisoners the right to “shop around the
country in the hope of receiving a more favorable
ruling.” Early v. Lamanna, No. 98-3892, 1999 WL
435156, at *5 (6th Cir. June 17, 1999); 3 Charles A.
Wright & Sarah N. Welling, Federal Practice &
Procedure § 623, at 648 & n.26 (4th ed. 2011).
At the least, this rule would trigger a difficult
“choice-of-law question.” Chazen, 938 F.3d at 864
(Barrett, J., concurring). When a court of confinement
hears a claim in a § 2241 petition, should it apply its
precedent or the circuit precedent from the sentencing
court? On the one hand, a rule following the sentencing
court’s law “ensures that the law that prevails in the
judicial circuit of any federal prisoner’s conviction, or a
substantially similar law, is the law that will be applied
to the prisoner’s § 2241 petition seeking vacation of a
conviction.” Id. at 865 (citation omitted). It also

27a
eliminates the arbitrary nature of tying the law that
governs a § 2241 petition to the location in which the
prisoner happens to be detained. Id. On the other hand,
a rule following the court of confinement’s law comports
with the background norm that each court should apply
its own precedent on the meaning of federal law. E.g.,
AER Advisors, Inc. v. Fidelity Brokerage Servs., LLC,
921 F.3d 282, 288 n.5 (1st Cir. 2019). As then-Judge
Ginsburg said, “because there is ultimately a single
proper interpretation of federal law, the attempt to
ascertain and apply diverse circuit interpretations
simultaneously is inherently self-contradictory.” In re
Korean Air Lines Disaster of Sept. 1, 1983, 829 F.2d
1171, 1175 (D.C. Cir. 1987). And while Congress could
order a departure from that default principle, it did not
do so in 1948. It fixed the problem of one circuit
assessing another’s work by changing the venue, not the
choice-of-law rules.
This case features all of these problems. Hueso was
sentenced in Alaska, so Ninth Circuit precedent
governed his direct appeal and § 2255 proceedings. He
also relies heavily on the Fourth Circuit’s Simmons
decision, even though he was not convicted there and is
not confined there. Yet he is now imprisoned in
Kentucky, so Sixth Circuit precedent would normally
govern. But our cases point in opposite directions on the
merits of Hueso’s sentencing claim. Compare United
States v. Rockymore, 909 F.3d 167, 170–71 (6th Cir.
2018), with United States v. Montgomery, 893 F.3d 935,
940–41 (6th Cir. 2018). And what if we were to disagree
with Simmons and Valencia-Mendoza? Reasonable
minds might conclude that the Supreme Court’s reading

28a
of “an unrelated, civil statutory scheme[]” in CarachuriRosendo “offers [no] clear direction” in this context.
Simmons, 649 F.3d at 250 (Duncan, J., dissenting); see
id. at 250–58 (Agee, J., dissenting). A requirement that
the new interpretation spring from the Supreme Court,
with its power to impose a uniform interpretation among
the circuits, avoids these inter-circuit feuds—the same
type of feuds that Congress sought to eliminate in 1948.
3. Competing Views
Neither the Fourth Circuit’s decision in Wheeler nor
the dissent in this case persuades us to take a different
view. The Fourth Circuit found “no need to read
[§ 2255(e)’s] savings clause as dependent only on a
change in Supreme Court law” because its text (unlike
§ 2255(h)(2)’s text) does not identify a new Supreme
Court case as a prerequisite for § 2255 to be considered
“inadequate or ineffective.” Wheeler, 886 F.3d at 428–
29. True enough. But we still must decide what
§ 2255(e)’s general “inadequate or ineffective” language
means. Even if our precedent requires us to overlook
that this general phrase is connected to the words “to
test,” we still should interpret the phrase in the way that
best comports with the rest of § 2255. See Star Athletica,
137 S. Ct. at 1010. And § 2255(h)(2) requires a new
Supreme Court decision before triggering the right to a
second or successive § 2255 motion. We would read this
limit right out of the statute if we held that the limit also
rendered § 2255 “inadequate or ineffective” under
§ 2255(e) so as to permit the filing of a § 2241 petition
instead.
The Fourth Circuit, by comparison, thought that
§ 2255(h)(2)’s requirement of a new Supreme Court

29a
decision “cut[] the other way.” Wheeler, 886 F.3d at 428.
It said: “Congress could have made savings clause relief
dependent only on changes in Supreme Court
constitutional law by using the identical language in
§ 2255(e), but it did not.” Id. at 428–29. The court thus
replaced the harmonious-reading canon with a
“discordant-reading” canon. Under its logic, Congress
also could have made savings clause relief dependent
only on a federal prisoner’s compliance with § 2255(f)’s
time limits. Does its failure to do so mean that courts
may hold that those time limits render § 2255
“inadequate or ineffective” under § 2255(e)? We think
not. Courts should read § 2255(e)’s general “inadequate
or ineffective” phrase in a manner that harmonizes it
with the rest of § 2255, not in a manner that creates
conflicts in the statutory scheme. For centuries, courts
have recognized that “[i]f any section [of a law] be
intricate, obscure, or doubtful, the proper mode of
discovering its true meaning is by comparing it with the
other sections, and finding out the sense of one clause by
the words or obvious intent of the other.” Scalia &
Garner, supra, at 167 (quoting 1 Edward Coke, The First
Part of the Institutes of the Laws of England, or a
Commentary upon Littleton § 728, at 381a (1628; 14th
ed. 1791)). The Fourth Circuit failed to do so.
The Fourth Circuit also said that § 2255(e) applies to
those who have already been “denied” relief under
§ 2255, so Congress meant for it to cover “those
prisoners filing a successive § 2255 motion.” Wheeler,
886 F.3d at 429. We do not dispute that § 2255(e)’s
language covers those who have had one § 2255 motion
denied if they show that § 2255’s remedy is inadequate

30a
or ineffective. But we fail to see how that fact favors the
Fourth Circuit’s conclusion that they may rely on new
circuit cases over our conclusion that they must rely on
new Supreme Court cases.
To its credit, the dissent in this case does confront
our concern that interpreting § 2255(e)’s “inadequate or
ineffective” language to include statutory changes from
the circuit courts would treat the limits in § 2255(f)(3)
and (h)(2) as a nullity. The dissent says those limits
would bar most untimely or successive § 2255 motions
(and so would not be superfluous) because only a narrow
subset of circuit changes would trigger § 2255(e): those
showing statutory errors that are “sufficiently grave to
be deemed a miscarriage of justice or a fundamental
defect.” Dissent at 30 (quoting Hill, 836 F.3d at 595).
This response confirms the textual problem with the
dissent’s view. As noted, the Supreme Court has long
held that a statutory error “does not provide a basis for
collateral attack”—whether under § 2241, § 2254, or
§ 2255—“unless the claimed error constituted ‘a
fundamental defect which inherently results in a
complete miscarriage of justice.’” Addonizio, 442 U.S. at
186 (quoting Hill, 368 U.S. at 428); see Reed v. Farley,
512 U.S. 339, 353–55 (1994). Well before Congress’s 1996
amendments, a federal prisoner needed to satisfy this
fundamental-defect requirement when raising statutory
errors in collateral attacks. After those amendments, a
prisoner still must satisfy this fundamental-defect
element even if the prisoner files a timely first-in-time
§ 2255 motion. If satisfying that preexisting mandate
also automatically overcomes Congress’s second-orsuccessive limits in § 2255(h) or its time limits in

31a
§ 2255(f), those limits do no additional work. We refuse
to read the limits out of the statute in this way.
Again to its credit, the dissent recognizes the
incongruity of allowing a prisoner to raise a successive
statutory claim based on a new circuit decision under
§ 2241 when the prisoner must rely on a new Supreme
Court decision to raise a successive constitutional claim
under § 2255(h)(2). Dissent at 31–32. The dissent
reconciles this oddity not by requiring new Supreme
Court decisions for both statutory and constitutional
claims (as we do), but by suggesting that even new
constitutional circuit decisions can render § 2255
“inadequate or ineffective” under § 2255(e). We are not
aware of any other opinion that has suggested that a new
constitutional decision by a circuit court could render
§ 2255 inadequate or ineffective and trigger another
round of litigation under § 2241. Yet, as the dissent
rightly notes, that is the logical implication of Wheeler’s
holding, despite § 2255(h)(2)’s plain text requiring “a
new rule of constitutional law, made retroactive to cases
on collateral review by the Supreme Court,” for
successive litigation under § 2255. For this reason, too,
we think that our reading best implements § 2255’s text
and structure.
In sum, Hueso must identify a new Supreme Court
decision to show that § 2255’s remedy is inadequate or
ineffective. He thus may not rely on the Ninth Circuit’s
decision in Valencia-Mendoza or the Fourth Circuit’s
decision in Simmons as the basis for his habeas claim.

32a
B.
That leaves Hueso with one Supreme Court
precedent—Carachuri-Rosendo—in support of his view
that § 2255’s remedy is inadequate to test his sentencing
claim. His reliance on this case fails for a timing reason:
The Supreme Court decided Carachuri-Rosendo in June
2010. See 560 U.S. at 563. Carachuri-Rosendo thus
issued well before Hueso filed his § 2255 motion in June
2011. Indeed, Hueso could have cited CarachuriRosendo on the direct appeal in his criminal case, which
was decided in March 2011. See Hueso, 420 F. App’x at
776. Because Hueso faced no “obstacle” to citing this
Supreme Court decision in support of his sentencing
claim in earlier proceedings, he had a “reasonable
opportunity” to rely on the decision. Wright, 939 F.3d at
703 (citation omitted). This decision thus does not
establish his initial § 2255 motion’s inadequacy.
In response, Hueso argues that he could not have
relied on Carachuri-Rosendo on direct appeal or in his
initial § 2255 motion because of the then-existing Ninth
Circuit precedent that foreclosed his claim. Yet the
“new legal arguments,” see Wright, 939 F.3d at 705, that
Carachuri-Rosendo generated included the argument
that later won in the Ninth Circuit—that this new
decision overruled prior circuit precedent interpreting
terms like “felony drug offense,” see Valencia-Mendoza,
912 F.3d at 1219. Indeed, if Hueso had timely raised his
claim, the Ninth Circuit may well have found that its
earlier decisions conflicted with this “higher intervening
authority” in his case, not in Valencia-Mendoza’s case.
Id.
***

33a
Disagreements among the circuit courts often create
the potential for the unequal treatment of similarly
situated parties. Here, Gerald Wheeler could pursue in
the Fourth Circuit the habeas claim that Ramon Hueso
may not raise in the Sixth. A federal prisoner’s ability
to seek habeas relief under § 2241 should not depend on
where the executive branch opts to confine him. But a
circuit conflict would exist over the meaning of § 2255(e)
no matter how we resolved Hueso’s case. And we must
follow the approach that stays true to the text and
structure of § 2255, not one that implements our own
personal views of justice and fairness. We affirm.

34a
DISSENT
KAREN NELSON MOORE, Circuit Judge,
dissenting. In 2009, Ramon Hueso was convicted in the
District of Alaska of one count of unlawfully and
knowingly conspiring with another to distribute and
possess with intent to distribute 50 grams or more of a
mixture
or
substance
containing
actual
methamphetamine. See Hueso v. Barnhart, No. 6:18176, 2018 WL 6172513, at *2 (E.D. Ky. Nov. 26, 2018).
Hueso had been convicted twice before of drug offenses
in the State of Washington, so he was subject to a
mandatory-minimum sentence of 20 years. Id. Had
Hueso been convicted in Alaska of the same federal
offense and with the same criminal record in 2019,
however, his mandatory-minimum sentence would have
been 10 years. This discrepancy is the result of the
Ninth Circuit changing its law on how to determine
whether a prior offense is a “felony drug offense.” See
United States v. Valencia-Mendoza, 912 F.3d 1215, 1224
(9th Cir. 2019). Hueso, who is now incarcerated within
this circuit, seeks relief under 28 U.S.C. § 2241. If he
were collaterally attacking his sentence for the first
time, he would almost certainly prevail based on the
intervening change in law. The only reason he will
remain in prison for another decade is because he has
already sought habeas relief once, and did not prevail the
first time. He should not be foreclosed from seeking
such relief, and therefore I dissent.

35a
I.
A jury convicted Hueso of one count of unlawfully
and knowingly conspiring with another to distribute and
possess with intent to distribute 50 grams or more of a
mixture
or
substance
containing
actual
methamphetamine, in violation of 21 U.S.C. §§ 846 and
841(b)(1)(A). Hueso, 2018 WL 6172513, at *2. Because
the government gave notice under 21 U.S.C. § 851 that
Hueso had two prior felony drug convictions, he was
subject to the enhanced penalties of § 841(b)(1)(A):
namely, the then-applicable 20-year mandatory
minimum. Id.
Whether one of Hueso’s prior drug convictions was
properly categorized as a “felony drug offense” is at the
heart of this case. “A ‘felony drug offense’ is defined as
‘an offense that is punishable by imprisonment for more
than one year under any law of . . . a State . . . that
prohibits or restricts conduct relating to narcotic
drugs.’” United States v. Rosales, 516 F.3d 749, 758 (9th
Cir. 2008) (quoting 21 U.S.C. § 802(44)). The statutory
maximum under Washington law for both of Hueso’s
prior drug convictions was five years. Hueso, 2018 WL
6172513, at *5. Under Ninth Circuit law at the time of
Hueso’s federal conviction, “[t]o determine whether a
state ‘felony drug offense’ is punishable by more than
one year,” a court would “look to the state’s statutory
maximum sentence and not the maximum sentence
available under the state sentencing guidelines.”
Rosales, 516 F.3d at 758.
Thus, Hueso’s prior
convictions qualified as felony drug offenses, and he was
subject to the enhanced federal mandatory minimum.

36a
But Hueso was not actually subject to imprisonment
for a year or longer for either of his prior Washington
convictions. R. 1-2 (Pet. App’x at 2) (Page ID #30); see
Appellant Br. at 17–18. The maximum sentence under
Washington’s sentencing guidelines to which Hueso was
subject was six months. R. 1-2 (Pet. App’x at 2) (Page
ID #30); see Appellant Br. at 17–18. At the time of
Hueso’s federal conviction, Rosales was the law of the
Ninth Circuit, and so the statutory maximum—as
opposed to the maximum under the sentencing
guidelines—controlled. The law of the Ninth Circuit has
since changed. In 2019, the Ninth Circuit held in United
States v. Valencia-Mendoza that “courts must consider
both a crime’s statutory elements and sentencing factors
when determining whether an offense is ‘punishable’ by
a certain term of imprisonment.” 912 F.3d 1215, 1224
(9th Cir. 2019). Except in certain circumstances that
existed neither in Valencia-Mendoza nor in this case,
Washington’s sentencing guidelines are binding, and
therefore it is the prescribed guidelines range—not the
statutory maximum—that must be considered when
determining whether a prior conviction was a felony
offense. This is the basis of Hueso’s § 2241 petition.
A challenge to the validity of a federal conviction or
sentence is generally brought as a motion pursuant to
§ 2255, whereas a petition concerning the manner or
execution of a sentence is appropriate under § 2241. Hill
v. Masters, 836 F.3d 591, 594 (6th Cir. 2016). A prisoner’s
ability to access § 2255 relief is limited, however, when
the movant is filing a “second or successive” motion.
Such a motion is barred unless it “(1) contains newly
discovered evidence that ‘would be sufficient to establish

37a
by clear and convincing evidence that no reasonable
factfinder would have found the movant guilty,’ or (2) is
based on ‘a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme
Court, that was previously unavailable.’” Id. (quoting 28
U.S.C. § 2255(h)). Yet § 2255 has an escape valve of
sorts, which is known as the savings clause. This clause
allows some prisoners to file their claims under § 2241,
free from § 2255’s restrictions on second or successive
motions. 28 U.S.C. § 2255(e).
The savings clause says:
An application for a writ of habeas corpus in
behalf of a prisoner who is authorized to apply for
relief by motion pursuant to [§ 2255], shall not be
entertained if it appears that the applicant has
failed to apply for relief, by motion, to the court
which sentenced him, or that such court has
denied him relief, unless it also appears that the
remedy by motion is inadequate or ineffective to
test the legality of his detention.
Id.
Until 2016, this court allowed prisoners to use the
savings clause to challenge their convictions only when
they identified retroactively applicable changes in
statutory law that established their innocence. See
United States v. Peterman, 249 F.3d 458, 462 (6th Cir.
2001).
That changed, however, with Hill.
Hill
established that, in some limited circumstances, a
prisoner can use the savings clause to bring a § 2241
petition to challenge a sentence, even though the
prisoner is not asserting that they should not have been

38a
convicted of the underlying crime. In Hill, the prisoner
was sentenced under the pre-United States v. Booker,
543 U.S. 220 (2005), mandatory guidelines and received
a sentencing enhancement as a career offender. Hill, 836
F.3d at 592–94. After Hill’s conviction, direct appeal,
and first § 2255 motion, the Supreme Court issued
Descamps v. United States, 570 U.S. 254 (2013), which
directed the lower courts to use the categorical approach
when the statute at issue consists of a single set of
elements that define the crime “more broadly than the
generic offense.” Descamps, 570 U.S. at 261. The
Fourth Circuit—the jurisdiction in which Hill was
convicted and sentenced—applied Descamps to Hill’s
crime of conviction and determined that it was not a
violent felony. Hill, 836 F.3d at 595. Thus, if Hill had
been convicted and sentenced post-Descamps, he would
not have been subject to the mandatory career-offender
sentencing enhancement. But because Descamps dealt
with statutory interpretation rather than constitutional
rights, Hill could not have brought a second motion
under § 2255. This court held that Hill had access to
relief through the savings clause and was able to file a
§ 2241 petition. The circumstances in which a prisoner
could proceed as Hill did require (1) a case of statutory
interpretation, (2) that is retroactively applicable and
“could not have been invoked in [the] original petition,”
and (3) an error “sufficiently grave to be ‘deemed a
miscarriage of justice,’ or, put another way, a
‘fundamental defect’ corrigible in a habeas corpus
proceeding.” Id. at 598 (quoting Brown v. Caraway, 719
F.3d 583, 586 (7th Cir. 2013)). The question before us
here is whether the “case of statutory interpretation”

39a
may come from a circuit court, rather than the Supreme
Court.
II.
Before delving into this question, the majority states
at the outset of its opinion that it will not opine on
“whether Hueso’s sentencing challenge alleges the type
of statutory error that can be asserted on collateral
review at all,” given that “his 20-year sentence . . . fell
below what would have been the maximum allowed by
law (life imprisonment) even without the challenged
enhancement.” Maj. Op. at 10. Indeed, there is no need
for further opinion on whether such a challenge is
cognizable, because we have already held that it is. In
Hill, we considered “whether § 2241 may also support a
challenge to a misapplied enhancement resulting in a
sentence that does not exceed the statutory maximum,”
and held that it could. 836 F.3d at 596–97. Specifically,
we held that because Hill was sentenced under the
mandatory sentencing guidelines pre-Booker, he could
collaterally attack his sentence even though it was lower
than the statutory maximum. 836 F.3d at 599 (“Serving
a sentence imposed under mandatory guidelines
(subsequently lowered by retroactive Supreme Court
precedent) shares similarities with serving a sentence
imposed above the statutory maximum. Both sentences
are beyond what is called for by law, and both raise a
fundamental fairness issue.”) (citation omitted). Like
Hill, Hueso was sentenced pursuant to a mandatory
framework that did not allow the district court to
exercise discretion in varying downward, resulting in a
sentence that is “beyond what is called for by law”; in
Hill’s case, this framework was a mandatory sentencing

40a
range, and in Hueso’s case, it was a mandatory
minimum. Although the sentencing courts in these cases
“might have imposed [] sentence[s] equally as harsh as
th[ose] mandated by [law],” to deny a claim based on this
“frail conjecture” would constitute an “arbitrary
disregard of the petitioner’s right to liberty.” Hicks v.
Oklahoma, 447 U.S. 343, 346 (1980).
On this point, the majority cites Bullard v. United
States, 937 F.3d 654, 659 (6th Cir. 2019), perhaps in an
attempt to find some ambiguity in Hill’s holding.
Bullard, however, only further highlights the problem
Hill identified with forcing prisoners to bear sentences
that are no longer mandatory. In Bullard, the prisoner
argued that “the district court misclassified him as a
career offender, which resulted in a higher
recommended sentence.” 937 F.3d at 657. Yet Bullard
was sentenced pursuant to the post-Booker, advisory
guidelines, unlike Hill, whom we permitted to mount a
collateral attack on his sentence because it was rendered
pursuant to the pre-Booker, mandatory guidelines. The
panel made clear in Bullard that the advisory nature of
the guidelines was central to its decision: “[A]
misapplication-of-an-advisory-guidelines-range claim is
. . . not cognizable under § 2255.” Id. at 660 (quoting
Snider v. United States, 908 F.3d 183, 191 (6th Cir. 2018),
cert. denied, 139 S. Ct. 1573 (2019)). The problem the
panel had with Bullard’s claim was not that his resulting
sentence would still be within the statutory maximum.
See id. at 658. Rather, the panel rejected his collateral
attack on the guidelines range because that range was
not binding on the sentencing court.

41a
Here, by contrast, the district court was required to
sentence Hueso to no less than 20 years in prison—a
doubling of his mandatory minimum, constraining the
district court’s discretion, as it made very clear at
sentencing. See AK R. 84 (Sent’g Hr’g Tr. at 11–12, 14)
(“And so, you know, tough as it is, you know, it’s not—I
didn’t write law, I just have to impose the law. . . . None
of us wrote the law, . . . [a]nd somewhere along the line,
the legislature, I guess, in its war on drugs decided that
if you’re going to do it once and then do it again, not learn
from your mistakes, then they’re going to treat you
seriously. . . . [a]nd so that’s why we—that’s why the
sentence, although tough, is deemed reasonable by those
who set . . . the sentence.”).
Reading Bullard
consistently with our precedent in Hill, it is clear that
we permit collateral attacks to mandatory sentences
when the sentence has become no longer mandatory,
even if the resulting sentence is within the statutory
maximum. See United States v. Wheeler, 886 F.3d 415,
434 (4th Cir. 2018). To the extent the majority implies
that collateral attacks may be unavailable to any
prisoners whose sentences fall within their statutory
ranges, our binding precedent in Hill states otherwise.
III.
Turning to the merits, the majority raises textual,
doctrinal, and prudential reasons for rejecting Hueso’s
§ 2241 petition, none of which are convincing. I consider
each in turn.
A.
The majority’s professed adherence to plainlanguage review falls short, as it ignores the simple fact

42a
that the savings clause in § 2255(e) does not contain the
textual limitations placed on second or successive
motions in § 2255(h). Whereas the savings clause
permits recourse to § 2241 when a remedy by § 2255
motion is “inadequate or ineffective,” § 2255(h) identifies
only two specific scenarios in which successive § 2255
motions are permitted. As we recognized in Hill, this
represents an unmistakable difference between these
two provisions: “A § 2241 petition is not subject to the
general rule against second or successive motions in the
absence of newly discovered evidence or a new rule of
constitutional law.” 836 F.3d at 594. And as the
Supreme Court has emphasized, such differences must
mean something. “Where Congress includes particular
language in one section of a statute but omits it in
another section of the same Act, it is generally presumed
that Congress acts intentionally and purposely in the
disparate inclusion or exclusion.” Russello v. United
States, 464 U.S. 16, 23 (1983) (alteration and internal
quotation marks omitted). In this vein, “Congress could
have made savings clause relief dependent only on
changes in Supreme Court constitutional law by using
the identical language in [the savings clause], but it did
not.” Wheeler, 886 F.3d at 428–29. I would presume that
the clear textual differences between § 2255(h) and
§ 2255(e) are not the result of legislative inadvertence.
Indeed, we have already held that § 2241 covers some
territory that § 2255 does not. Compare Wooten v.
Cauley, 677 F.3d 303, 307 (6th Cir. 2012) (holding, in
part, that a petitioner may use a § 2241 petition based on
“the existence of a new interpretation of statutory law”),
with 28 U.S.C. § 2255(h) (no exception for new

43a
interpretations of statutory law). See also United States
v. Barrett, 178 F.3d 34, 51 (1st Cir. 1999) (“[T]he § 2255
savings clause . . . must mean something.”). The
majority expends great effort in suggesting alternative
routes that previous panels of this court could have
taken in construing the text of the savings clause,1 but
fails to acknowledge that our interpretation of
“inadequate or ineffective”—as meaning something
other than what the two exceptions in § 2255(h)
provide—is well established.
Accepting the premise that the savings clause stands
for something, the majority contends further that if we
allowed a prisoner to access the savings clause based on
an intervening circuit court decision, we would “abolish”
the requirement of § 2255(h)(2) that a successive motion
be based on a new rule of constitutional law from the
Supreme Court. Why? Because “prisoners could assert
new statutory claims (under § 2241) more easily than
they could assert new constitutional claims (under
§ 2255(h)(2)).” Maj. Op. at 14.

1

Throughout its opinion, the majority suggests that, were it not
bound by this court’s precedent, it would constrict the availability
of habeas corpus even more radically than it does today. For
example, through a gossamer distinction between “relief” and
“remedy,” see Leah M. Litman, Legal Innocence and Federal
Habeas, 104 VA. L. REV. 417, 488 & n.336 (2018), the majority would
apparently adopt the interpretation of § 2255(e) offered in Prost v.
Anderson, 636 F.3d 578 (10th Cir. 2011) (Gorsuch, J.), which would
bar § 2241 relief for prisoners convicted of acts that had become no
longer criminal, prisoners whose sentences exceeded the statutory
maximum, and prisoners whose convictions or sentences violated
their constitutional rights.

44a
The majority has it backwards. Throughout the
opinion, it fails to acknowledge that the savings clause of
§ 2255(e)—the only way for a federal prisoner to seek
successive review of his sentence based on a change in
statutory law—is extremely narrow and does not create
an “easier” path for relief compared to § 2255(h). A brief
overview of 28 U.S.C. § 2255’s structure explains why.
In the first subsection, § 2255(a), the statute provides
four circumstances in which a prisoner may attack a
sentence: 1) when “the sentence was imposed in
violation of the Constitution or laws of the United
States,” 2) when the sentencing court “was without
jurisdiction to impose such sentence,” 3) when “the
sentence was in excess of the maximum authorized by
law,” and 4) when the sentence “is otherwise subject to
collateral attack.” 28 U.S.C. § 2255(a). In construing this
statute, the Supreme Court has long drawn a distinction
between those § 2255 claims that assert “constitutional
or jurisdictional” errors and those that do not. Snider v.
United States, 908 F.3d 183, 189 (6th Cir. 2018) (citing
Davis v. United States, 417 U.S. 333, 346 (1974)), cert.
denied, 139 S. Ct. 1573 (2019). Claims of constitutional
error need not demonstrate a “complete miscarriage of
justice” to be cognizable under § 2255. Id. Thus, even if
a prisoner is filing his second, third, or fourth § 2255
motion, he may overcome the statute’s general bar on
such iterative motions if he invokes “a new rule of
constitutional law” made retroactive by the Supreme
Court. 28 U.S.C. § 2255(h)(2).
Claims in the latter category—such as those raising
statutory claims, like Hueso’s—are subject to a more
onerous standard. “[N]onconstitutional claims that

45a
could not have been asserted on direct appeal can be
raised on collateral review only if the alleged error
constituted ‘a fundamental defect which inherently
results in a complete miscarriage of justice.’” Stone v.
Powell, 428 U.S. 465, 477 n.10 (1976) (quoting Davis, 417
U.S. at 346). The same is true of second or successive
statutory claims brought via the savings clause, under
which a prisoner seeking to challenge his sentence must
demonstrate an “error sufficiently grave to be deemed a
miscarriage of justice or a fundamental defect.” Hill, 836
F.3d at 595 (citing Brown v. Caraway, 719 F.3d 583, 586
(7th Cir. 2013), and Williams v. Warden, Fed. Bureau of
Prisons, 713 F.3d 1332, 1343 (11th Cir. 2013)). Yet the
majority repeatedly ignores just how narrow § 2255(e)’s
supplementary path to relief is. Arguing that Hueso’s
interpretation of the savings clause would “write th[e]
[§ 2255(h)(2)] limit out of the statute,” Maj. Op. at 2, the
majority fails to acknowledge our well-established
precedent that “the § 2255 remedy is not considered
inadequate or ineffective simply because § 2255 relief
has already been denied, or because the petitioner is
procedurally barred from pursuing relief under § 2255,
or because the petitioner has been denied permission to
file a second or successive motion to vacate.” Charles v.
Chandler, 180 F.3d 753, 756 (6th Cir. 1999) (citations
omitted). Thus, when the majority asks, “Does a new
statutory decision from a circuit court suffice to show
§ 2255’s inadequacy?”, Maj. Op. at 11, it is asking the
wrong question. I agree with the majority that the
answer to its question is no, as does Hueso.2 Only when
2

The majority erects and tears down the same straw man in its
invocation of § 2255(f)’s one-year statute of limitations. “[N]o

46a
a prisoner, relying on a new, retroactive decision, can
demonstrate an “error sufficiently grave to be deemed a
miscarriage of justice or a fundamental defect” does the
savings clause become available. Hill, 836 F.3d at 595.
Thus, allowing a prisoner to raise an intervening circuit
court decision via § 2241 does not allow him to utilize
statutory law “more easily” than constitutional law,
given this onerous requirement imposed on statutory
claims.
The majority suggests that this interpretation would
allow a showing of fundamental defect to “automatically
overcome[] Congress’s second-or-successive limits in
§ 2255(h) or its time limits in § 2255(f).” Maj. Op. at 20.
This cannot be the case, the majority continues, because
a federal prisoner filing his first § 2255 motion based on
a statutory error must show fundamental defect, and
there must be some difference between what is required
to file a first and a second or successive motion. Again,
the majority tells only half of the story. Even when a
federal prisoner can demonstrate that a statutory error
in his conviction or sentence constituted fundamental
defect, savings-clause relief will be unavailable unless
that prisoner can demonstrate “a case of statutory
interpretation . . . that is retroactive and could not have
reasonable interpreter,” the majority states, “would say that
§ 2255(f)’s one-year statute of limitations makes § 2255’s remedy
‘inadequate or ineffective’ whenever a prisoner blows that
deadline.” Maj. Op. at 14. Again, I agree. Time and again we have
held that more is required of a prisoner seeking access to the
savings clause. A showing of a missed deadline would not satisfy
Hill’s requirement of “error sufficiently grave to be deemed a
miscarriage of justice or a fundamental defect.” Hill, 836 F.3d at
595.

47a
been invoked in the initial § 2255 motion.” Hill, 836 F.3d
at 595. Only by ignoring the other requirements of
accessing savings-clause relief, as clarified in Hill, can
the majority characterize the interpretation of § 2255
offered here as “read[ing] the limits out of the statute.”
Maj. Op. at 20.
Still, one might wonder why an intervening circuit
court construction of statutory law—if creating a
“fundamental defect” in a petitioner’s sentence—could
afford relief under § 2241, while an intervening circuit
court construction of constitutional law could not. I
agree with the majority that such a reading would fail to
harmonize § 2255 with § 2241. Instead, I would permit
intervening circuit court decisions of constitutional
law—again, only if triggering a “fundamental defect” in
a petitioner’s sentence—to make savings clause relief
available. This reading would not render § 2255(h)(2)
moot in any sense. After all, in the post-AEDPA
landscape, a prisoner can file successive § 2255 motions
so long as he demonstrates a new Supreme Court rule of
constitutional law, even without a showing of error
constituting a “complete miscarriage of justice.” See
Davis, 417 U.S. at 346; 28 U.S.C. § 2255(h)(2). See also
United States v. Mikalajunas, 186 F.3d 490, 495–96 (4th
Cir. 1999) (“[T]he scope of review of non-constitutional
error is more limited than that of constitutional error; a
nonconstitutional error does not provide a basis for
collateral attack unless it involves ‘a fundamental defect
which inherently results in a complete miscarriage of
justice,’ or is ‘inconsistent with the rudimentary
demands of fair procedure.’”) (citations omitted). Yet if
the petitioner seeks to rely on a circuit court decision of

48a
constitutional law, he would need to make a showing of
“fundamental defect” under § 2241, as discussed above.
This reading would avoid 1) creating an “odd state of
affairs” in which a prisoner with a second or successive
statutory claim could secure relief based on an
intervening circuit court case, while a prisoner with a
second or successive constitutional claim could not,
Chazen v. Marske, 938 F.3d 851, 864 (7th Cir. 2019)
(Barrett, J., concurring), and 2) rendering § 2255(h)(2)
superfluous, because the only instances in which
intervening circuit court decisions of constitutional law
would suffice for savings-clause purposes would be those
involving “error[s] sufficiently grave to be deemed a
miscarriage of justice or a fundamental defect.” Hill, 836
F.3d at 595. Not only is there “no need to read the
savings clause as dependent only on a change in
Supreme Court law,” Wheeler, 886 F.3d at 428, but, in
order to harmonize § 2255(h) with § 2241, there is an
obligation to permit savings-clause relief for statutory
and constitutional claims alike.
IV.
The majority next attempts to justify its holding by
reference to our precedent, beginning with a discussion
of our past rejection of § 2241 petitions that did not raise
claims of actual innocence. The relevance of this
discussion is unclear, as this case is about something
different: Whether an intervening change in circuit law
may render a § 2255 motion “inadequate or ineffective.”
Historical overview of this question confirms that we
have never limited use of the savings clause to situations
in which Supreme Court law has changed. In fact, in
analyzing whether a prisoner may access the savings

49a
clause, we have explicitly considered whether the
prisoner has demonstrated an intervening change in
circuit law.
A.
In none of the cases cited by the majority have we
limited use of the savings clause to situations involving
intervening Supreme Court decision that postdate a
prisoner’s initial § 2255 motion. The majority describes
our recent decision in Wright v. Spaulding, 939 F.3d 695
(6th Cir. 2019), as stating that our earlier decision in
Martin v. Perez, 319 F.3d 799 (6th Cir. 2003), included
this limitation. See Maj. Op. at 6. In Wright, a panel of
this circuit stated that Martin limited successive habeas
petitions to situations in which a prisoner’s argument
“had been blocked by binding precedent until a new
Supreme Court case cleared the path.” 939 F.3d at 702
(citing Martin, 319 F.3d at 805). In Martin, however, we
never stated that it “mattered,” Wright, 939 F.3d at 702
(discussing Martin), whether the intervening change in
law came from the Supreme Court or a circuit court.
Nothing in Martin addresses the issue we face here:
Whether the distinction between Supreme Court and
circuit court caselaw makes a difference.3 Nor did we
limit the savings clause in this way in United States v.
Peterman, 249 F.3d 458 (6th Cir. 2001), another case
cited by the majority in its historical overview.
3

As Wright’s lesson on the definition of a holding should illuminate,
see 939 F.3d at 700–02, there is a difference between a) holding that,
in an individual case, a new Supreme Court decision has reopened
the door to collateral relief and b) holding that only new Supreme
Court decisions can reopen this door.

50a
Peterman rejected three prisoners’ § 2241 petitions
“because [they] ha[d] not shown an intervening change
in the law that establishe[d] their actual innocence.” Id.
at 462 (emphasis added).4 Absent in this formulation is
any reference to—let alone a requirement of—an
intervening change in Supreme Court law. Nor is there
any such requirement in Bannerman v. Snyder, 325 F.3d
722 (6th Cir. 2003), another case cited by the majority in
its doctrinal review.
Finally, our decision in Hill did not limit all savingsclause claims to situations involving intervening changes
in Supreme Court law. In Hill, we did state that a
petitioner could access the savings clause “when a
subsequent,
retroactive
change
in
statutory
interpretation by the Supreme Court reveals that a
previous conviction is not a predicate offense for a
career-offender enhancement.” 836 F.3d at 600. Yet “we
reiterate[d] that our decision addresses only a narrow
subset of § 2241 petitions,” id. at 599, and here Hueso
brings a different type of claim from the one brought by
Hill. In fact, we stated more generally in Hill:
When seeking to petition under § 2241 based on a
misapplied sentence, the petitioner must show (1)
a case of statutory interpretation, (2) that is
retroactive and could not have been invoked in
the initial § 2255 motion, and (3) that the
misapplied sentence presents an error

4

We have, of course, eliminated the actual-innocence requirement
since deciding Peterman, as the majority acknowledges. Maj. Op.
at 6.

51a
sufficiently grave to be deemed a miscarriage of
justice or a fundamental defect.
Id. at 595 (emphasis added). This enunciation of our
standard clearly does not limit all uses of § 2241 to cases
involving “a Supreme Court case of statutory
interpretation”; had we intended such a limit, we would
have said so.
The majority’s reliance on other precedent
interpreting “cause” for failing to raise arguments
earlier is similarly unavailing. The majority argues that
before Congress codified limits on successive § 2255
motions in AEDPA, “the Supreme Court’s cases
suggested that nothing but a new Supreme Court
precedent” would establish “cause” for a new motion.
Maj. Op. at 16. Specifically, the majority states:
If . . . a circuit’s decisions precluded a claim—that
is, if the claim was “unacceptable to that
particular court at that particular time,” Engle v.
Isaac, 456 U.S. 107, 130 n.5 (1982) (citation
omitted)—the prisoner could not establish
“cause” for failing to raise the claim from this fact
alone. See Bousley, 523 U.S. at 623–24.
Id. This statement overreaches. First, neither the
Supreme Court in Engle v. Isaac nor the Ninth Circuit
in the omitted citation above (a dissenting opinion by
Judge Poole in Myers v. State of Wash., 646 F.2d 355, 364
(9th Cir. 1981)) were discussing the preclusive effect of
a circuit court’s decisions. The Supreme Court in Engle
was explaining that a habeas petitioner under § 2254
“may not bypass the state courts simply because he
thinks they will be unsympathetic to the claim,” because

52a
“[e]ven a state court that has previously rejected a
constitutional argument may decide, upon reflection,
that the contention is valid.” Engle, 456 U.S. at 130.
Federal circuit courts, by contrast, are unable to alter
course upon their own reflection. See, e.g., 6th Cir. R.
32.1 (“Published panel opinions are binding on later
panels. A published opinion is overruled only by the
court en banc.”). Similarly, Judge Poole in Myers was
describing his unwillingness to allow § 2254 petitioners
to bypass the state courts: “[U]nless the objection was
truly so far ahead of its time that its conception would
have been visionary, I think that the state trial court is
entitled to an opportunity to consider it before it may
provide the basis for reversal on federal habeas.” Myers
v. State of Wash., 646 F.2d 355, 364 (9th Cir. 1981) (Poole,
J., dissenting), cert. granted, judgment vacated sub nom.
Washington v. Myers, 456 U.S. 921 (1982). Neither of
these opinions dealt with adverse circuit precedent, and
neither is binding on this court.
Second, although the Supreme Court in Bousley v.
United States did reject a § 2255 petition despite settled,
adverse circuit precedent foreclosing the prisoner from
raising an argument earlier, it did so in the context of
procedural default on a direct appeal, not in the context
of a successive § 2255 motion. See 523 U.S. 614, 623
(1998). Its treatment of adverse circuit precedent is not
binding on our court’s interpretation of the savings
clause, as Judge Posner explained in In re Davenport,
147 F.3d 605 (7th Cir. 1998).
In that case,
notwithstanding the Bousley decision a month prior, the
Seventh Circuit permitted a prisoner to file a successive
§ 2255 motion because settled adverse circuit precedent

53a
would have rendered an earlier argument futile. Id. at
611 (“The trial judge, bound by our pre-Bailey cases,
would not listen to [the prisoner]; stare decisis would
make us unwilling (in all likelihood) to listen to him.”).5
In fact, published caselaw in this circuit has
supported consideration of intervening circuit law as a
basis for accessing the savings clause. We have held that
when a prisoner seeks access to § 2241 via the savings
clause because a change in law meant the prisoner was
actually innocent, that change in law did not have to
come from the Supreme Court; a change in circuit law
was sufficient. See Phillips v. United States, 734 F.3d
573, 582 (6th Cir. 2013) (denying a petition based on
actual innocence because “[n]either this Circuit nor the
Supreme Court has issued any ‘new decisions
interpreting . . .’ the criminal offense” at issue); see also
Haque v. Warden, 665 F. App’x 390, 396–97 (6th Cir.
2016) (considering an intervening circuit case but
declining to grant a § 2241 petition because the case did
not create a “new rule of statutory interpretation”).
There is no meaningful distinction between the claims in
these cases and Hueso’s claim. Thus, the majority’s
statement that our savings-clause cases have “all
involved a new Supreme Court decision,” Maj. Op. at 11,

5

Nor has the Bousley decision stopped the federal government
from repeatedly arguing to the Supreme Court and to this court
that the savings clause provides relief when controlling circuit
precedent foreclosed a legal claim at the time of sentencing. See,
e.g., U.S. Br. in Opp. at 9, 11–13, Dority v. Roy, No. 10-8286 (May 16,
2011); Corrected Br. for the Respondent Warden at 45, Hill v.
Masters, 836 F.3d 591 (6th Cir. 2016) (No. 15-5188).

54a
ignores the fact that we have explicitly considered new
circuit court decisions in the savings-clause analysis.
B.
Because the majority believes that the savings clause
does not permit petitions like Hueso’s, it does not reach
the questions of whether Valencia-Mendoza—the Ninth
Circuit case on which Hueso relies for his savings-clause
argument—1) “could not have been invoked in the initial
§ 2255 motion” and 2) was a retroactive decision. Hill,
836 F.3d at 595. I would reach both of these questions
and hold that Hueso has satisfied this portion of the Hill
test.
1.
On the question of whether earlier invocation of the
decision was possible, the majority is correct that
Carachuri-Rosendo v. Holder, 560 U.S. 563 (2010), on
which Valencia-Mendoza was based in part, was issued
before Hueso filed his § 2255 motion—indeed, it was
issued during the pendency of his direct appeal. But it is
the later-decided Valencia-Mendoza, not CarachuriRosendo, that abrogated “binding adverse precedent”
and “clear[ed] a path” for Hueso’s habeas petition.
Wright v. Spaulding, 939 F.3d 695, 703, 706 (6th Cir.
2019). After all, Carachuri-Rosendo did not deal with
the definition of a felony offense, or with federal drug
laws at all. It was an immigration case, interpreting a
different statutory term in a different context.
Moreover, the fact that Carachuri-Rosendo was a
building block for the Ninth Circuit’s decision in
Valencia-Mendoza does not undermine Hueso’s
argument that he could not have raised the Ninth Circuit

55a
case earlier. On this point, the doctrinal chronology
leading up to this case is important, and similar to that
of Hill, in which the petitioner was permitted to use the
savings clause after an intervening decision despite the
existence of supportive, Supreme Court precedent at
the time he filed his first § 2255 motion. At first blush,
Hill may appear dissimilar; after all, the relevant new
cases that Hill relied upon in his § 2241 petition—
Descamps and United States v. Royal, 731 F.3d 333 (4th
Cir. 2013)—were decided after Hill filed his direct appeal
and § 2255 motion, so Hill clearly could not have invoked
them earlier. Yet the Descamps decision was based on
Supreme Court caselaw that predated Hill’s conviction.
See Descamps, 570 U.S. at 260 (citing Taylor v. United
States, 495 U.S. 575 (1990)). The Court said in Descamps
that its “caselaw . . . all but resolves this case” and that
the Descamps decision was merely applying that
caselaw in “the only way we have ever allowed.” Id. at
260, 263. Thus, at least some of the building blocks of
Descamps were available to Hill in his direct appeal and
earlier § 2255 motion, yet he was not foreclosed from
filing a § 2241 petition based on Descamps. If we bar
Hueso’s petition because at least one of the building
blocks of Valencia-Mendoza was available to him at the
time of his direct appeal, then Hill’s petition ought to
have been barred as well.
There is a further complication, however. A panel of
this circuit recently opined that “[a]t no point did the
Hill panel consider and consciously decide whether
Hill’s claim had previously been unavailable. . . . There
was no ‘application of the judicial mind’ to that question,
so there was no ‘decision’ about it.” Wright, 939 F.3d at

56a
704.6 In other words, Wright says that the foregoing
discussion of Hill—specifically related to Hill’s ability to
rely on Descamps despite an earlier opportunity to raise
its foundational cases as a basis for relief—is not the
holding of Hill. I am not so convinced. Although the
government in Hill conceded that the petitioner could
not have invoked his claim any earlier, see Corrected Br.
for the Respondent Warden at 38, 43, Hill v. Masters,
836 F.3d 591 (6th Cir. 2016) (No. 15-5188), and the panel
in Hill did not offer independent analysis on this issue,
see Hill, 836 F.3d at 595–96, the fact remains that the
parties could not stipulate their way around § 2255(e)’s
requirement that in order to file a § 2241 petition, a
§ 2255 motion must have been deemed “inadequate or
ineffective.” If Descamps had been published a year
before Hill filed his § 2241 petition and the government
had erroneously conceded that Hill could not have raised
it earlier, we surely would not have granted Hill relief
based on the parties’ flawed stipulation of law.
In any event, whether or not Hill’s acceptance of the
parties’ agreement that Hill could not have raised his
claim earlier qualifies as a holding, the fact that we
6

As an initial matter, Wright’s discussion of Hill is itself dicta per
the framework Wright sets forth for determining which parts of
judicial opinions are binding: It is not “clear that the [Wright] court
intended to rest the judgment” on its conclusion that Hill lacked a
holding on the petitioner’s prior opportunity to invoke a new case.
939 F.3d at 701. The opinion did conclude that “Hill held nothing
inconsistent with the reasonable-opportunity standard,” id. at 703,
but it did not “actively appl[y] the conclusion to the case in front of
it,” id. at 701. There is no further discussion of Hill or what its lack
of discussion on “reasonable opportunity” meant for Wright in his
habeas petition.

57a
permitted this claim despite existing Supreme Court
caselaw that Hill could have theoretically raised earlier
is highly significant in Hueso’s case, which raises
precisely the same issue. Here, existing Supreme Court
caselaw—namely
Carachuri-Rosendo—supported
Hueso’s argument that his prior convictions did not
qualify as felony drug offenses, but adverse circuit
precedent—United States v. Rios-Beltran, 361 F.3d
1204 (9th Cir. 2004), and United States v. Murillo, 422
F.3d 1152 (9th Cir. 2005)—directly foreclosed this
argument when he first litigated a § 2255 motion. As in
Hill, it was not until the circuit court explicitly
abrogated its old rule that Hueso could reasonably be
expected to raise the claim. In Wright, by contrast, we
concluded that the petitioner—who argued that the
Supreme Court’s decision in Mathis constituted
intervening law, which he could not have raised earlier—
did not “need Mathis to clear a path through erroneous
Fourth Circuit precedent.” 939 F.3d at 706. We
concluded that Wright identified only one binding circuit
case on point that, in fact, was consistent with Mathis—
far from the “binding adverse precedent” Wright needed
to show that he had “no reasonable opportunity” to make
his winning argument earlier. Id. at 703, 706 n.8. In this
case, on the other hand, the now-overruled Ninth Circuit
cases cited by Hueso unambiguously foreclosed the “new
legal arguments” he raises in his § 2241 petition. Id. at
705. See, e.g., Rios-Beltran, 361 F.3d at 1208 (“The
actual sentence imposed on an individual for a prior
conviction . . . is not the relevant inquiry. We look to the
maximum penalty allowed by law in determining
whether a prior conviction constitutes an aggravated
felony under state law for purposes of § 2L1.2.”). This

58a
case is closer to Hill, in which controlling circuit
precedent foreclosed relief.
2.
Because the majority rejects Hueso’s argument that
Valencia-Mendoza’s alteration of the “felony offense”
definition allows him to use the savings clause in
§ 2255(e), it also does not reach the question of whether
Valencia-Mendoza applies retroactively. See Hill, 836
F.3d at 595. “New substantive rules generally apply
retroactively,” Schriro v. Summerlin, 542 U.S. 348, 351
(2004), whereas “rules of criminal procedure” generally
do not, Teague v. Lane, 489 U.S. 288, 310 (1989). A new
rule is substantive “if it alters the range of conduct or
the class of persons that the law punishes.” Schriro, 542
U.S. at 353. “Such rules apply retroactively because
they ‘necessarily carry a significant risk that a defendant
stands convicted of “an act that the law does not make
criminal”’ or faces a punishment that the law cannot
impose upon him.” Id. at 352 (quoting Bousley v. United
States, 523 U.S. 614, 620 (1998) (citation omitted)).
The question here is whether Valencia-Mendoza, in
applying Carachuri-Rosendo to the case before it, has
retroactive application. I would hold that it does,
following the Fourth Circuit’s analysis in Miller v.
United States, 735 F.3d 141, 145 (4th Cir. 2013). In
Miller, the Fourth Circuit confronted the same issue we
face here, examining whether a prior circuit case—
United States v. Simmons, 649 F.3d 237 (4th Cir. 2011)
(en banc)—applied retroactively. As the Ninth Circuit
did in Valencia-Mendoza, the Fourth Circuit had
applied Carachuri-Rosendo in Simmons to determine
whether a petitioner’s earlier state conviction was for an

59a
offense punishable by imprisonment for a term
exceeding one year. Like Hueso, Simmons had received
a doubling of his mandatory-minimum sentence—from
five to ten years, in Simmons’s case—under 21 U.S.C.
§ 841(b), because existing precedent required the
sentencing court to determine whether Simmons’s prior
conviction was punishable by a prison term exceeding
one year by referencing “the maximum aggravated
sentence that could be imposed for that crime upon a
defendant with the worst possible criminal history.” Id.
at 241 (quoting United States v. Harp, 406 F.3d 242, 246
(4th Cir. 2005)). For the same reasons discussed in
Valencia-Mendoza, the en banc court in Simmons
reversed circuit precedent and held that under
Carachuri-Rosendo, a prior conviction under North
Carolina law was punishable by more than one year of
imprisonment only if the defendant’s conviction, based
on individualized offense characteristics and criminal
history, permitted such a sentence. Id. at 244.
Subsequently, the Fourth Circuit held in Miller that
a prisoner could benefit retroactively from the Simmons
decision because Simmons “applied Carachuri to create
a new substantive rule,” even if the Supreme Court’s
decision in Carachuri-Rosendo itself did not create a
new substantive rule.
Miller, 735 F.3d at 145.
Specifically, the Miller court held that “Simmons
requires the court to look at how much prison time the
defendant was exposed to given his own criminal history
at the time he was sentenced and any aggravating
factors that were actually alleged against him,” and in
doing so “altered ‘the class of persons that the law
punishes.’” Id. at 146 (quoting Schriro, 542 U.S. at 353).

60a
Unlike a procedural rule, the new rule in Simmons did
not “merely raise the possibility that someone convicted
with use of [an] invalidated procedure might have been
acquitted otherwise.” Id. at 145 (quoting Schriro, 542
U.S. at 352).
Simmons did for the prisoner there precisely what
Valencia-Mendoza does for Hueso here: It removed him
from the “class of persons” on whom the law imposed
double the mandatory-minimum sentence to which he
would have otherwise been subject. A decision that
“narrow[s] the scope of a criminal statute,” Schriro, 542
U.S. at 352, by eliminating certain individuals, like
Hueso, from the ambit of a mandatory-minimum
sentencing enhancement qualifies as a new substantive
rule, whether or not the resulting sentence could have
theoretically been imposed by the sentencing court. As
a case in point, Valencia-Mendoza afforded relief to a
prisoner who had incorrectly received a sentencing
enhancement under U.S.S.G. § 2L1.2, despite the fact
that his resulting prison sentence—twenty-four
months—was still within the statutory maximum set by
8 U.S.C. § 1326. The new rule from Valencia-Mendoza
thus significantly shrunk the class of persons who are to
be punished as prior felony offenders, and should have
retroactive application.
V.
Finally, the majority raises prudential concerns with
an interpretation of the savings clause that would allow
a prisoner like Hueso to seek resentencing based on an
update in the law of the circuit where he was sentenced.
First, the majority argues that its rule “at least lessens
the potential friction between the sentencing court . . .

61a
and the court of confinement.” Maj. Op. at 17. A rule
taking its “marching orders” from the Supreme Court,
the majority says, avoids a system in which courts of
confinement “‘grade’ the opinions of the sentencing
circuit.” Id. This misunderstands the dynamic of claims
like Hueso’s. For us to grant Hueso relief under § 2241
would not involve any complex interpretation or
“grading” of Ninth Circuit precedent. The Ninth Circuit
has unambiguously overruled its own precedent; we are
simply tasked with applying this controlling precedent
to Hueso’s straightforward claim, and sending him back
to the Ninth Circuit for resentencing—which is
undisputedly how the Ninth Circuit would treat his
claim if he were able to file a § 2255 motion there. Even
when the relied-upon intervening circuit law is less clear
than a case like Valencia-Mendoza, there will be no
greater intercircuit friction than in cases involving a
prisoner asking the court of confinement to interpret
intervening Supreme Court law as striking down
binding law of the sentencing circuit. Yet we have
allowed such claims—which may involve far more
scrutiny by our circuit on other circuits—for years.7 See
Martin v. Perez, 319 F.3d 799, 805 (6th Cir. 2003). On
7

Relatedly, the majority misstates the effect of Congress’s
enactment of 28 U.S.C. § 2255. See Maj. Op. at 4 (“The 1948 law
eliminated the need for courts to review distant judgments by
creating a new cause of action in 28 U.S.C. § 2255.”). Even under
the majority’s preferred construction of the savings clause,
however, there would be some need for such review of distant
judgments.
To characterize the enactment of § 2255 as
“eliminat[ing]” any need for collateral review reads the language of
§ 2255(e)—which, since 1948, has explicitly contemplated such a
need—into thin air.

62a
this point, the majority cannot make up its mind. On the
one hand, it favors a system in which our court applies
Supreme Court decisions to the law of the sentencing
circuit, because “[a]ny new decision from the Supreme
Court binds both courts.” Maj. Op. at 17. Yet when it
comes to the Supreme Court’s decision in CarachuriRosendo, the majority says this case “offers [no] clear
direction” in this context, id. at 18 (quoting Simmons,
649 F.3d at 250 (Duncan, J., dissenting)), contrary to its
initial statement that Supreme Court decisions provide
the certainty necessary to opine on other circuits’ law.
At bottom, applying intervening circuit court decisions
set forth in § 2241 petitions would be no more difficult or
uncomfortable than what this circuit has done for years.
Second, the majority frets over a rule allowing
forum-shopping prisoners—who, in the majority’s
hypothetical, have the capacity to effect their own
transfers to circuits with more favorable law—to benefit
when “the circuit precedent in the court of confinement
is more favorable to the prisoner’s claim than the circuit
precedent in the sentencing court.” Maj. Op. at 17. Yet
Hueso has not proposed such a rule, nor would I. Such a
rule “would base the choice of law decision on the
fortuitous placement of a prisoner by the Bureau of
Prisons, not the more rational factor of the place of
conviction.” Chaney v. O’Brien, No. 07-cv-121, 2007 WL
1189641, at *3 (W.D. Va. Apr. 23, 2007) (citing ZunigaHernandez v. Gilkey, 242 F. Supp. 2d 549, 554 (S.D. Ill.
2001)), aff’d, 241 F. App’x 977 (4th Cir. 2007). Ninth
Circuit law, the law of the circuit where Hueso was
sentenced, is clearly the law to be applied to Hueso’s
§ 2241 petition. Sixth Circuit law is immaterial to

63a
assessing the petition. Nothing about a rule permitting
prisoners to raise intervening circuit court decisions
would result in the type of confusion the majority
imagines.
***
For all space the majority devotes to these
exaggerated concerns, it is silent on the Kafkaesque
implications of its holding. To be clear: The majority
today withholds relief from Hueso—whose legal
arguments have now been undisputedly accepted by the
Ninth Circuit, where he would be resentenced under a
new rule that would cut his mandatory minimum in half
and could result in his immediate release from prison—
because, nearly a decade ago, he did not argue to the
Ninth Circuit that its standing interpretation of the law
was incorrect. See Appellee Br. at 16 (“[I]t appears
Hueso could have been the prisoner to raise CarachuriRosendo to the Ninth Circuit and—based on the
language in Valencie-Mendoza [sic]—he would have
succeeded.”); Maj. Op. at 22 (“[I]f Hueso had timely
raised his claim, the Ninth Circuit may well have found
that its earlier decisions conflicted with this ‘higher
intervening authority’ in his case, not in ValenciaMendoza’s case.”). This suggestion is surprising given
the majority’s recognition of “society’s interest in
stopping perpetual attacks on final criminal judgments.”
Maj. Op. at 1. The rule created today not only
incentivizes but requires prisoners to raise arguments to
courts that are squarely foreclosed by binding
precedent, to the detriment of judicial efficiency. See In
re Davenport, 147 F.3d at 610 (“It would just clog the
judicial pipes to require defendants, on pain of forfeiting

64a
all right to benefit from future changes in the law, to
include challenges to settled law in their briefs on appeal
and in postconviction filings.”). Judicial economy aside,
it is unclear how the interests of justice are furthered
when we reject a meritorious claim from a prisoner who
actually did raise winning arguments years before they
became the law of the circuit where he was sentenced,
see Petition for Writ of Habeas Corpus at 16, Hueso v.
Sepanek, No. 13-cv-19, 2013 WL 4017117, (E.D. Ky. Aug.
6, 2013), but not in the circuit where he was sentenced.
In the world the majority creates, relief inures to
Valencia-Mendoza and not to Hueso, prisoners
sentenced in the same circuit, purely by chance. All of
this the majority fashions based on an erroneous
interpretation of text and precedent.
Each day that Ramon Hueso sits in prison longer
than the law requires, our invocations of justice and
fairness ring a little hollower. In the death-penalty
context, Justice Blackmun once expressed a concern
that “[t]he more the Court constrains the federal courts’
power to reach the constitutional claims of those
sentenced to death, the more the Court undermines the
very legitimacy of capital punishment itself.” Sawyer v.
Whitley, 505 U.S. 333, 359–60 (1992) (Blackmun, J.
concurring).
I fear the “crusade to erect petty
procedural barriers” against undisputedly meritorious
claims, manifest in the majority opinion and other recent
decisions by this court, works a similar effect on this
circuit’s habeas jurisprudence. Coleman v. Thompson,
501 U.S. 722, 758–59 (1991) (Blackmun, J., dissenting).
On this point, Chief Judge Gregory’s dissenting words in

65a
the Fourth Circuit’s now-vacated opinion in United
States v. Surratt are apt:
I do not doubt that the majority is sympathetic to
[the defendant]. In the end, I suppose we just
have fundamentally different views on the role of
habeas corpus, as well as the role of the judiciary
in granting the writ. I see it as our solemn
responsibility to guard against a morbid
encroachment upon that which is so precious our
Framers ensured its continued vitality in our
Constitution. . . . Our abdication of this
responsibility begs the question: quis custodiet
ipsos custodies? Who will guard the guards
themselves?
United States v. Surratt, 797 F.3d 240, 276 (4th Cir. 2015)
(Gregory, J., dissenting), pet. for reh’g en banc granted,
(4th Cir. Dec. 2, 2015).8 The majority opinion provides
no answers to Chief Judge Gregory’s question.
For the foregoing reasons, I dissent.

8

The Fourth Circuit voted to rehear Surratt en banc, thereby
vacating the panel decision. See 4th Cir. Local Rule 35(c). Before
the en banc court could issue an opinion, however, the President
commuted Surratt’s sentence from life imprisonment to 200 months’
imprisonment. See Commutations Granted by President Barack
Obama (2009–2017), United States Department of Justice,
https://www.justice.gov/pardon/obama-commutations. A majority
of the Fourth Circuit’s judges concluded that this commutation
rendered Surratt’s appeal moot. United States v. Surratt, 855 F.3d
218, 219 (4th Cir.), cert. denied, 138 S. Ct. 554 (2017).

66a
Appendix B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
(at London)
RAMON HUESO,

)
)
Petitioner,
) Civil Action No. 6:
)
18-176-DCR
V.
)
)
J. A. BARNHART, Warden, ) MEMORANDUM
) OPINION AND
Respondent.
)
ORDER
*** *** *** ***
Federal prisoner Ramon Hueso has filed a petition
for a writ of habeas corpus pursuant to 28 U.S.C. § 2241,
seeking relief from his sentence. [Record No. 1] The
matter is pending for consideration of several issues
related to the petition.
I.
After conducting an initial screening, the Court
entered an Order on June 20, 2018, finding that, Hueso’s
petition required a response before his claims may be
adjudicated. [Record No. 4] The Order directed that a
response be filed within sixty days of service on the
respondent.
[Id.]
The record reflects that the
respondent received a copy of the petition on September
13, 2018. [Record No. 7]

67a
When no response had been filed by October 22, 2018,
Hueso requested an entry of default against respondent,
arguing that the applicable time limit for filing a
response had expired. [Record No. 9] The Court denied
Hueso’s motion, noting that, as respondent did not
receive a copy of the petition until September 13, 2018,
the response time had not yet expired. [Record No. 10]
Hueso then moved for reconsideration of the Order
pursuant to Federal Rule of Civil Procedure 59(e).
[Record No. 11]
A court may grant relief under Rule 59(e) only to (1)
correct a clear error of law; (2) account for newly
discovered evidence; (3) accommodate an intervening
change in controlling law; or (4) prevent a manifest
injustice. American Civil Liberties Union of Ky. v.
McCreary Co., Ky., 607 F.3d 439, 450 (6th Cir. 2010);
Besser v. Sepanek, 478 F. App’x 1001, 1001-02 (6th Cir.
2012). Hueso’s motion does not satisfy any of these
criteria.
Hueso first argues that the Court erroneously
calculated the time within which a response to his habeas
petition must be filed. He contends that, because the
warden is named as the respondent to the petition only
in his official capacity, service of the petition on the
United States Attorneys’ Office and the United States
Attorney General is sufficient for service upon the
respondent. However, to serve an employee of the
United States sued only in an official capacity, “a party
must serve the United States and also send a copy of the
summons and of the complaint by registered or certified
mail to the…employee.” Fed. R. Civ. P 4(i)(2) (emphasis
added). Thus, for service to be complete, it must be

68a
made on the United States, and a copy of the petition
must be sent to the respondent. Because the respondent
did not receive a copy of the petition until September 13,
2018 [Record No. 7], the response was due within sixty
days from that date. [Record No. 4] Therefore, this
period had not expired prior to Hueso’s motion for
default.1
Hueso next argues that the Court erred in allowing
the respondent 60 days to file a response. He argues that
28 U.S.C. § 2243 requires the Court to “forthwith” issue
the writ or require the respondent to show cause why it
should not be granted within three days, or no more than
twenty days. But this assertion is simply incorrect.
Following screening of the petition, the Court
possesses the discretion to require a response, but only
when necessary and within a time it concludes was
reasonable. Rule 4 of the Rules Governing Section 2254
Cases states that “the judge shall order the respondent
to file an answer or other pleading within the period of
time fixed by the court or to take such other action as
the judge deems appropriate.” Rule 1(b) of the 2254
Rules makes this rule applicable to proceedings under 28
U.S.C. § 2241. Under the Rules Enabling Act, 28 U.S.C.
§ 2072, Rule 4 takes precedence over § 2243. Hendon v.
Burton, No. 2:14-CV-14023, 2014 WL 8186698, at *1
(E.D. Mich. Nov. 17, 2014). Thus, the Court acted within
its discretion in providing 60 days within which
1

Hueso’s motion to reconsider was also filed before the expiration
of the 60-day response period. [Record No. 11] Although that
period has now expired, the respondent has filed a motion for
extension of time to file a response. [Record No. 12]

69a
respondent may file a response to the petition. For these
reasons, the Court adheres to its prior conclusion that
Hueso’s motion for entry of default was properly denied.
II.
The Court previously screened Hueso’s petition
under 28 U.S.C. § 2243 and concluded that a response to
the petition was needed before this matter could
proceed. [Record No. 4] However, a petition will be
denied “if it plainly appears from the petition and any
attached exhibits that the petitioner is not entitled to
relief.” Rule 4 of the Rules Governing § 2254 Cases in
the United States District Courts (applicable to § 2241
petitions pursuant to Rule 1(b)). In light of authority
from the Sixth Circuit issued after the Court initial
screening, it is now clear that Hueso is not entitled to
relief. Thus, a response is no longer required, and the
petition will be dismissed for the reasons outlined below.
A.
Following a jury trial in October 2009, Hueso was
convicted in the United States District Court for the
District of Alaska of one count of unlawfully and
knowingly conspiring with another to distribute and
possess with intent to distribute a controlled substance
(i.e., 50 grams or more of a mixture and substance
containing actual methamphetamine), in violation of 21
U.S.C. §§ 846 and 841(b)(1)(A). Before trial, the United
States filed a notice pursuant to 21 U.S.C. § 851
identifying Hueso’s two prior drug felony drug
convictions from the State of Washington. As a result,
he was subject to enhanced statutory penalties under 21
U.S.C. § 841(b)(1)(A), including a maximum sentence of

70a
life imprisonment and a mandatory minimum sentence
of 20 years. In January 2010, Hueso was sentenced to a
term of imprisonment of 240 months. United States v.
Hueso, No. 3:09-CR-48-RRB-1 (D. Alaska 2009).
Hueso’s conviction and sentence were affirmed on
appeal to the United States Court of Appeals for the
Ninth Circuit, United States v. Hueso, 420 F. App’x 776
(9th Cir. 2011). Thereafter, his motions for postconviction relief filed with the trial court, including a
motion to vacate filed pursuant to 28 U.S.C. § 2255 and a
motion for modification or reduction of sentence
pursuant to 18 U.S.C. § 3582(c)(2), were denied. United
States v. Hueso, No. 3:09-CR-48-RRB-1 (D. Alaska
2009).
Hueso’s § 2241 petition presents two arguments for
relief. First, he contends that the enhancement of his
sentence was improper in light of the Supreme Court’s
subsequent decisions in Descamps v. United States, 133
S. Ct. 2276 (2013), and Mathis v. United States, 136 S. Ct.
2243 (2016), as well as the Sixth Circuit’s decision in Hill
v. Masters, 836 F.3d 591 (6th Cir. 2016), and the Fifth
Circuit’s decision in United States v. Hinkle, 832 F.3d
569 (5th Cir. 2016). More specifically, he argues that, in
light of Mathis, the statute of his prior state drug
convictions used to enhance his federal sentence
pursuant is broader than the federal definition of a
“felony drug offense.” Thus, he asserts that the use of
these prior convictions as predicate offenses violated his
due process rights. [Record No. 1 at p. 6; Record No. 11 at p. 11-12] Next, Hueso asserts that, in light of the
Supreme Court’s decision in Carachuri-Rosendo v.
Holder, 560 U.S. 563 (2010), and the Fourth Circuit’s

71a
decision in United States v. Simmons, 649 F.3d 237 (4th
Cir. 2011), his prior convictions do not qualify as “felony
drug offenses” for purposes of his §841(b)(1)(A)
enhancement because neither of these two convictions
were “punishable for a term exceeding one year.”
[Record No. 1 at p. 7; Record No. 1-1 at p. 16-17]
Having thoroughly reviewed the petition, the Court
will deny relief because Hueso’s claims are not
cognizable in a habeas corpus petition under § 2241 and
because they are without merit.
B.
A federal prisoner generally may not use a § 2241
petition to challenge the enhancement of his sentence.
See United States v. Peterman, 249 F.3d 458, 461 (6th
Cir. 2001). Instead, a prisoner who wishes to challenge
the legality of his conviction or sentence must file a
motion under § 2255. Id. (explaining the distinction
between a § 2255 motion and a § 2241 petition). A § 2241
petition may not be used for this purpose because it does
not function as an additional or alternative remedy to the
one available under § 2255. Hernandez v. Lamanna, 16
F. App’x 317, 320 (6th Cir. 2001).
The “savings clause” of 28 U.S.C. § 2255(e) creates a
narrow exception to this prohibition if the remedy
afforded by § 2255 is “inadequate or ineffective” to test
the legality of the prisoner’s detention. Truss v. Davis,
115 F. App’x 772, 773-74 (6th Cir. 2004). A motion under
§ 2255 is not “inadequate or ineffective” simply because
the prisoner’s time to file a § 2255 motion has passed; he
did not file a § 2255 motion; or he did file such a motion
and was denied relief. Copeland v. Hemingway, 36 F.

72a
App’x 793, 795 (6th Cir. 2002); Taylor v. Gilkey, 314 F.3d
832, 835 (7th Cir. 2002) (holding that § 2241 is available
“only when a structural problem in § 2255 forecloses
even one round of effective collateral review...”). In
other words, prisoners cannot use a habeas petition
under § 2241 to get another “bite at the apple.”
Hernandez, 16 F. App’x at 360.
The decidedly narrow scope of relief under § 2241
applies with particular force to challenges to the
sentence imposed. Peterman, 249 F.3d at 462; Hayes v.
Holland, 473 F. App’x 501, 502 (6th Cir. 2012) (“The
savings clause of section 2255(e) does not apply to
sentencing claims.”). In Hill v. Masters, 836 F. 3d 591
(6th Cir. 2016), the Sixth Circuit articulated a very
narrow exception to this general rule, permitting a
challenge to a sentence to be asserted in a § 2241
petition, but only where (1) the petitioner’s sentence was
imposed when the Sentencing Guidelines were
mandatory before the Supreme Court’s decision in
United States v. Booker, 543 U.S. 220 (2005); (2) the
petitioner was foreclosed from asserting the claim in a
successive petition under § 2255; and (3) after the
petitioner’s sentence became final, the Supreme Court
issued a retroactively applicable decision establishing
that - as a matter of statutory interpretation - a prior
conviction used to enhance his or her federal sentence no
longer qualified as a valid predicate offense. Hill, 836 F.
3d at 599-600. At a minimum, Hueso’s claims fail to
satisfy the first and third requirements.
Hueso was sentenced in 2010, long after Booker was
decided, and under a discretionary guidelines regime.
See Contreras v. Ormond, No. 18-5020 at p. 2-3 (6th Cir.

73a
Sept. 10, 2018) (petitioner did not fall within the narrow
exception recognized by Hill because he was sentenced
post-Booker in 2009, under the advisory sentencing
guidelines). In addition, to the extent that Hueso claims
that the use of his prior convictions to enhance his
sentence violated his due process rights, this is not a
claim based upon statutory interpretation but a
constitutional claim. It is therefore a claim he could and
must have asserted before the trial court, upon direct
appeal, or through a motion pursuant to 28 U.S.C. § 2255.
As a result, it falls outside the purview of § 2241.
Moreover, Hueso argues that his sentence was
improperly enhanced because his predicate convictions
were not analyzed using the “categorical approach”
applied in Mathis, Descamps, and Hinkle. But both
Mathis and Descamps addressed the proper procedures
to be used when determining whether a conviction
qualifies as a predicate offense under the “enumerated
offenses” clause of the definition of “violent felony” in
the Armed Career Criminal Acts (“ACCA”), 18 U.S.C.
§ 924(e). Similarly, in Hinkle, the Fifth Circuit applied
the categorical approach of Mathis to determine
whether a prior Texas conviction is a “controlled
substance offense” within the meaning of § 4B1.1(a) of
the United States Sentencing Guidelines. Hinkle, 832
F.3d 569, 570-71.2

2

Likewise, in Dowell v. Quintana, No. 17-5297 (6th Cir. Nov. 17,
2017), another case relied upon by Hueso, the petitioner’s sentence
was enhanced pursuant to U.S.S.G. § 4B1.1 because of a prior
“controlled substance offense,” as defined by U.S.S.G. § 4B1.2.

74a
However, Hueso’s sentence was enhanced under the
far simpler provisions of § 841(b)(1)(A) because of his
two prior “felony drug offenses.” To qualify as a “felony
drug offense,” no detailed comparison of elements is
required. Rather, 21 U.S.C. § 802(44) merely requires
that the prior state or federal offense: (1) be punishable
by more than one year in prison, and (2) that it “prohibits
or restricts conduct relating to narcotic drugs,
marihuana, anabolic steroids, or depressant or stimulant
substances.” By its terms, § 802(44) does not require
that the prior offense constitute any particular species
of crime, but only that it “relat[e] to” conduct involving
drugs.
Given the breadth of this definition, the use of the
categorical approach is neither necessary nor
appropriate. See United States v. Graham, 622 F.3d 445,
456-57 (6th Cir. 2010); United States v. Spikes, 158 F.3d
913, 932 (6th Cir. 1998), cert. denied, 525 U.S. 1086 (1999).
Indeed, multiple decisions of the Sixth Circuit issued
after Hueso’s petition was filed confirm that Descamps
and Mathis are inapplicable to sentences enhanced
under § 841(b)(1)(A). See Smith v. Ormond, No. 18-5101
(6th Cir. July 30, 2018) at p. 4. See also Hidalgo v. Smith,
No. 18-5230 at p. 4 (6th Cir. Sept. 20, 2018) (Mathis and
Descamps are inapplicable where petitioner’s sentence
was increased under 21 U.S.C. § 841(b)(1)(A) because he
had previously committed a “felony drug offense.”);
Romo v. Ormond, No. 17-6137 at p. 4 (6th Cir. Sept. 13,
2018) (“Mathis…is inapplicable to sentences enhanced
under § 841(b)(1)(A).”); McKenzie v. Ormond, No. 185072 at p. 4)(6th Cir. July 11, 2018).

75a
In addition to the foregoing, Hueso entitled to relief
under Carachuri-Rosendo or Simmons. In Carachuri–
Rosendo, the Supreme Court more narrowly defined the
meaning of the term “aggravated felony” as set forth in
8 U.S.C. § 1229b(a)(3) for purposes of the Immigration
and Nationality Act, 66 Stat. 163, as amended 8 U.S.C.
§ 1101 et seq. Carachuri-Rosendo, 560 U.S. at 566.3
However, the Court did not address, directly or
inferentially, the definition of “felony drug offense” for
purposes of the enhancement set forth in § 841(b)(1).
Fields v. Warden, FCC Coleman-USP1, 612 F. App’x
980, 982 (11th Cir. 2014); Stewart v. Warden, FCC
Coleman-Low, 589 F. App’x 934, 937 (11th Cir. 2014)
(“[Carachuri–Rosendo]’s ultimate holding that nonrecidivist simple drug possession could not be an
“aggravated felony” [under the INA] has no bearing on
whether such an offense could be a “felony drug offense”
under 21 U.S.C. § 841.”). Regardless, in Simmons, the
Fourth Circuit applied the Supreme Court’s decision in
Carachuri-Rosendo in holding that the defendant’s prior
North Carolina conviction for possession with intent to
distribute marijuana did not constitute a predicate
“felony drug” conviction because, under the “unique
statutory regime mandated by the North Carolina
Structured Sentencing Act,” the defendant could not
have received a sentence in excess of twelve months for
3

Courts considering the question have routinely held that
Carachuri–Rosendo is not retroactively applicable to cases on
collateral review. Cf. United States v. Bowman, 561 F. App’x 294
(4th Cir. 2014); Lansdowne v. Wilson, 897 F. Supp. 2d 404, 406-07
(E.D. Va. 2012); Stewart v. Warden, FCC Coleman–Low, No. 5: 11CV-98-OC-29SPC, 2011 WL 6004594, at *3 (M.D. Fla. Nov. 30, 2011).

76a
his North Carolina conviction. Simmons, 649 F.3d at
240.
Hueso argues that, pursuant to Carachuri-Rosendo,
as interpreted by Simmons, his prior drug convictions
do not qualify as “felony drug offenses” for purposes of
his § 841(b)(1)(A) enhancement because neither of these
two convictions were “punishable for a term exceeding
one year.” This claim is without merit. As previously
discussed, § 841(b)(1) provides for a sentencing
enhancement based on a prior “felony drug offense,”
which is defined as any state or federal offense related
to narcotic drugs “that is punishable by imprisonment
for more than one year under any law of the United
States or of a State...” 21 U.S.C. § 802(44).
In contrast to the “unique statutory regime” at issue
in Simmons, Hueso’s prior convictions were for
violations of Washington state law, which clearly
provides that he faced a potential maximum five-year
sentence with respect to each of his two convictions.
Specifically, Hueso had prior Washington convictions for
possession of methamphetamine in violation of Wash.
Rev. Code 69.50.4013(1) and possession of cocaine, also
in violation of Wash. Rev. Code 69.50.4013(1). [Record
No. 1-2; United States v. Hueso, No. 3:08-cr-48-RRB-1
(D. Alaska) at Record No. 25] At the time of his 2006
conviction, Wash Rev. Code § 69.50.4013(2) provided
that “any person who violates this section is guilty of a
class C felony punishable under chapter 9A.20 RCW.”
Wash. Rev. Code § 69.50.4013 (effective July 1, 2004 to
December 5, 2012). In turn, at the time of Hueso’s
conviction, Wash. Rev. Code § 9A.20.021(1)(c) provided
in relevant part that, “[u]nless a different maximum

77a
sentence for a classified felony is specifically established
by a statute of this state, no person convicted of a
classified felony shall be punished by confinement or fine
exceeding the following…[f]or a class C felony, by
confinement in a state correctional institution for five
years...” Wash. Rev. Code § 9A.20.021(1)(c). Even the
Washington Judgment of his convictions submitted by
Hueso in support of his petition indicates that, with
respect to both convictions, he faced a maximum term of
five years. [Record No. 1-2, Felony Judgment and
Sentence, Superior Court of Washington, County of
Kittitas at p. 3]
The Ninth Circuit, which includes Alaska (the federal
district in which Hueso was sentenced) and Washington
(the state of his predicate convictions) has specifically
instructed that, “[t]o determine whether a state ‘felony
drug offense’ is punishable by more than one year, we
look to the state’s statutory maximum sentence and not
the maximum sentence available under the state
sentencing guidelines.” United States v. Rosales, 516
F.3d 749, 758 (9th Cir. 2008). In Rosales, the defendant
had a prior conviction for possession of a controlled
substance with an intent to deliver in violation of Wash.
Rev. Code § 69.50.401(d), which was also classified as a
Washington Class C felony under the terms of that
statute. Id. at 758. The Ninth Circuit held that, as the
maximum penalty provided by Washington law for the
crime to which the defendant pled guilty is five years of
imprisonment, which is greater than one year, the
defendant’s prior conviction qualified as a “felony drug
offense” under § 841(b)(1)(B). Thus, the mandatory
minimum sentence must be imposed. Id.

78a
Hueso has failed to show that the maximum sentence
he faced with respect to his prior Washington State
convictions was anything other than the maximum fiveyear term provided by Washington statutory law.
Because his prior convictions relate to drugs and were
“punishable by imprisonment for more than one year”
under the law of Washington State, both convictions
qualify as “felony drug offenses” under § 802(44) and
qualify as predicate offenses for purposes of the
sentencing enhancement provided by § 841(b)(1)(A).
In summary, Hueso’s claims fail to fall within the
limited exception recognized by Hill. Therefore, he may
not challenge his sentence in this § 2241 proceeding. And
because Hueso’s petition fails to establish any basis for
habeas relief, it is hereby
ORDERED as follows:
1. Hueso’s motion for reconsideration of the Court’s
previous Order denying entry of default [Record No. 11]
is DENIED.
2. Hueso’s petition for a writ of habeas corpus
[Record No. 1] is DENIED.
3. Respondent’s motion for extension of time to file
a response [Record No. 12] is DENIED AS MOOT.
4. This matter is DISMISSED and STRICKEN
from the docket.
Dated: November 26, 2018.
Signed By: /s/
Danny C. Reeves
United States District Judge

79a
Appendix C
AO 245B (Rev. 06/05) Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
District of Alaska
RECEIVED
FEB 17 2010
CLERK, U.S. DISTRICT COURT
ANCHORAGE, AK

UNITED STATES OF
AMERICA
V.
RAMON HUESO

*AMENDED
JUDGMENT IN A
CRIMINAL CASE
Case Number: 3:09-CR00048-01-RRB
USM Number: 35937-086
Rex Lamont Butler
Defendant’s Attorney

THE DEFENDANT:
 pleaded guilty to count(s)
 pleaded nolo contendere to count(s)
which was accepted by the court.
X was found guilty on count(s) 1 of the Indictment
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:

80a
Title & Section

Nature of Offense

21 U.S.C.
§§ 846(b)(1)
(A)

Drug Conspiracy

Offense Ended

5/06/2008

Count

1

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
 The defendant has been found not guilty on count(s)
X Count(s) 2 of the Indictment*
X
is
 (are) dismissed on the motion of the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days of
any change of name, residence, or mailing address until
all fines, restitution, costs, and special assessments
imposed by this judgment are fully paid. If ordered to
pay restitution, the defendant must notify the court and
United States attorney of material changes in economic
circumstances.
JANUARY 15, 2010
Date of Imposition of Judgment

SIGNATURE REDACTED
Signature of Judge

RALPH R. BEISTLINE, U.S.
DISTRICT JUDGE
Name and Title of Judge

2/17/10
Date

81a
AO 245B (Rev. 06/05) Judgment in Criminal Case
Sheet 2 — Imprisonment

AMENDED
Judgment -- Page 2 of 6

DEFENDANT:
RAMON HUESO
CASE NUMBER: 3:09-CR-00048-01-RRB
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned for
a total term of: 240 months on Count 1 of the Indictment.
X The court makes the following recommendations to
the Bureau of Prisons:
Court recommends that the defendant participate in
the 500 hour Drug and Alcohol Treatment Program.
Court recommends that the defendant serve his time
at the facility located in Sheridan, Oregon.
X The defendant is remanded to the custody of the
United States Marshal.
 The defendant shall surrender to the United States
Marshal for this district:
 a ______  a.m.  p.m. on _________________.
 as notified by the United States Marshal.
 The defendant shall surrender for service of sentence
at the institution designated by the Bureau of
Prisons:
 before 2 p.m. ____________________.
 as notified by the United States Marshal.
 as notified by the Probation or Pretrial Services
Office.

82a
RETURN
I have executed this judgment as follows:
Defendant delivered
at
certified copy of this judgment.

to
, with a

UNITED STATES MARSHAL

By:
DEPUTY UNITED STATES MARSHAL

83a
AO 245B (Rev. 06/05) Judgment in a Criminal Case
Sheet 3 — Supervised Release

AMENDED
Judgment -- Page 3 of 6

DEFENDANT:
RAMON HUESO
CASE NUMBER: 3:09-CR-00048-01-RRB
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be
on supervised release for a term of:
10 years.
The defendant must report to the probation office in
the district to which the defendant is released within 72
hours of release from the custody of the Bureau of
Prisons.
The defendant shall not commit another federal, state or
local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any
unlawful use of a controlled substance. The defendant
shall submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests
thereafter, not to exceed 12 tests per month as
determined by the probation officer.
 The above drug testing condition is suspended, based
on the court’s determination that the defendant
poses a low risk of future substance abuse. (Check, if
applicable.)
X The defendant shall not possess a firearm,
ammunition, destructive device, or any other
dangerous weapon. (Check, if applicable.)

84a
X The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check, if
applicable.)
 The defendant shall register with the state sex
offender registration agency in the state where the
defendant resides, works, or is a student, as directed
by the probation officer. (Check, if applicable.)
 The defendant shall participate in an approved
program for domestic violence.
(Check, if
applicable.)
If this judgment imposes a fine or restitution, it is a
condition of supervised release that the defendant pay in
accordance with the Schedule of Payments sheet of this
judgment.
The defendant must comply with the standard
conditions that have been adopted bythis court as well
as with any additional conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
1) the defendant shall not leave the judicial district
without the permission of the court or probation
officer;
2) the defendant shall report to the probation officer
and shall submit a truthful and complete written
report within the first five days of each month;
3) the defendant shall answer truthfully all inquiries by
the probation officer and follow the instructions of
the probation officer;

85a
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful
occupation, unless excused by the probation officer
for schooling, training, or other acceptable reasons;
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;
7) the defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use,
distribute, or administer any controlled substance or
any paraphernalia related to any controlled
substances, except as prescribed by a physician;
8) the defendant shall not frequent places where
controlled substances are illegally sold, used,
distributed, or administered;
9) the defendant shall not associate with any persons
engaged in criminal activity and shall not associate
with any person convicted of a felony, unless granted
permission to do so by the probation officer;
10) the defendant shall permit a probation officer to visit
him or her at any time at home or elsewhere and shall
permit confiscation of any contraband observed in
plain view of the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement to
act as an informer or a special agent of a law

86a
enforcement agency without the permission of the
court; and
13) as directed by the probation officer, the defendant
shall notify third parties of risks that may be
occasioned by the defendant’s criminal record or
personal history or characteristics and shall permit
the probation officer to make such notifications and
to confirm the defendant’s compliance with such
notification requirement.

87a
AO 245B (Rev. 06/05) Judgment in a Criminal Case
Sheet 3C — Supervised Release

AMENDED
Judgment -- Page 4 of 6

DEFENDANT:
RAMON HUESO
CASE NUMBER: 3:09-CR-00048-01-RRB
SPECIAL CONDITIONS OF SUPERVISION
1.

The defendant shall cooperate in the collection of a
DNA sample from the defendant as directed by the
Bureau of Prisons prior to release or by the
probation officer upon release.

2.

In addition to submitting to drug testing in
accordance with the Violent Crime Control and Law
Enforcement Act of 1994, the defendant shall
participate in an outpatient treatment program
approved by the United States Probation Office for
substance abuse treatment, which program shall
include testing to determine whether the defendant
has reverted to the use of drugs or alcohol. At the
direction of the probation officer, the defendant may
be required to pay for all or a portion of any
treatment program.

3.

The defendant shall submit to a warrantless search
of his person, residence, vehicle, his personal effects,
his place of employment, and other property by a
Federal probation or pretrial services officer or
other law enforcement officer, based upon
reasonable suspicion of contraband or a violation of
a condition of supervision. Failure to submit to a
search may be grounds for revocation.

4.

The defendant shall not possess a firearm,
destructive device, or other weapon.

88a
5.

The defendant shall provide the probation officer
access to any requested financial information,
including authorization to conduct credit checks, and
shall not incur any new debts or apply for credit
without the prior approval of the probation officer.
///////////////////////////////////////////////////////////////////

89a
AO 245B (Rev. 06/05) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

AMENDED
Judgment -- Page 5 of 6

DEFENDANT:
RAMON HUESO
CASE NUMBER: 3:09-CR-00048-01-RRB
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$ 100.00

Fine
$

Restitution
$

 The determination of restitution is deferred until
__________. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such
determination.
 The defendant must make restitution (including
community restitution) to the following payees in the
amount listed below.
If the defendant makes a partial payment, each payee
shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.

90a
Name of
Payee
TOTALS

Total
Loss1

Restitution
Ordered

$

$

$

$

Priority or
Percentage

 Restitution amount ordered pursuant to plea
agreement $
 The defendant must pay interest on restitution and a
fine of more than $2,500, unless the restitution or fine
is paid in full before the fifteenth day after the date
of the judgment, pursuant to 18 U.S.C. § 3612(f). All
of the payment options on Sheet 6 may be subject to
penalties for delinquency and default, pursuant to 18
U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered that:
 the interest requirement is waived for the
 fine



restitution.

 the interest requirement for the
 fine

1

 restitution is modified as follows:

Findings for the total amount of losses are required under
Chapters 109A, 110, 110A, and 113A of Title 18 for offenses
committed on or after September 13, 1994, but before April 23, 1996.

91a
AO 245B (Rev. 06/05) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

AMENDED
Judgment -- Page 6 of 6

DEFENDANT:
RAMON HUESO
CASE NUMBER: 3:09-CR-00048-01-RRB
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment
of the total criminal monetary penalties are due as
follows:
A X Lump sum payment of $ 100.00
immediately, balance due

due

 not later than __________, or
X in accordance  C,  D,  E, or X F below; or
B  Payment to begin immediately (may be combined
with  C,  D, or  F below); or
C  Payment in equal __________ (e.g., weekly,
monthly, quarterly) installments of $ __________
over a period of __________ (e.g., months or
years), to commence __________ (e.g., 30 or 60
days) after the date of this judgment; or
D  Payment in equal __________ (e.g., weekly,
monthly, quarterly) installments of $ __________
over a period of __________ (e.g., months or
years), to commence __________ (e.g., 30 or 60
days) after release from imprisonment to a term
of supervision; or
E  Payment during the term of supervised release
will commence within __________ (e.g., 30 or 60
days) after release from imprisonment. The court

92a
will set the payment plan based on an assessment
of the defendant’s ability to pay at that time; or
F X Special instructions regarding the payment of
criminal monetary penalties:
Any unpaid amount of the special assessment is
to be paid during the period of supervision in
monthly installments of not less than 10% of the
defendant’s gross monthly income or $25,
whichever amount is greater.
Unless the court has expressly ordered otherwise, if this
judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All
criminal monetary penalties, except those payments
made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk
of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
 Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.
 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
 The defendant shall forfeit the defendant’s interest
in the following property to the United States:

93a
Payments shall be applied in the following order: (1)
assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest, (6)
community restitution, (7) penalties, and (8) costs,
including cost of prosecution and court costs.

